<html>
<title> - THE 2003 PRESIDENTIAL AWARDEES FOR EXCELLENCE IN MATH AND SCIENCE TEACHING: A LESSON PLAN FOR SUCCESS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                   THE 2003 PRESIDENTIAL AWARDEES FOR
                EXCELLENCE IN MATH AND SCIENCE TEACHING:
                       A LESSON PLAN FOR SUCCESS

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2004

                               __________

                           Serial No. 108-48

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



92-513              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                            C O N T E N T S

                             March 18, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............     7
    Written Statement............................................     8

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............     8
    Written Statement............................................     9

Statement by Representative Sheila Jackson Lee, Member, Committee 
  on Science, U.S. House of Representatives......................    10

Statement by Representative Gil Gutknecht, Member, Committee on 
  Science, U.S. House of Representatives.........................    12

Statement by Representative Wayne T. Gilchrest, Member, Committee 
  on Science, U.S. House of Representatives......................    12

Statement by Representative Lynn Woolsey, Member, Committee on 
  Science, U.S. House of Representatives.........................    13

Statement by Representative Nick Smith, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..    13
    Written Statement............................................    13

Prepared Statement by Representative Eddie Bernice Johnson, 
  Ranking Minority Member, Subcommittee on Research, Committee on 
  Science, U.S. House of Representatives.........................    14

                               Witnesses:

Mr. Jonathan Roland, Teacher, Perry Hall High School, Baltimore, 
  Maryland
    Oral Statement...............................................    14
    Written Statement............................................    17
    Biography....................................................    19
    Financial Disclosure.........................................    23

Ms. Gail Bromiley-McGee, Teacher, Carnegie Vanguard High School, 
  Houston, Texas
    Oral Statement...............................................    23
    Written Statement............................................    27
    Biography....................................................    30
    Financial Disclosure.........................................    32

Mr. Jason Cushner, Teacher, Eagle Rock School and Professional 
  Development Center, Estes Park, Colorado
    Oral Statement...............................................    32
    Written Statement............................................    35
    Biography....................................................    36
    Financial Disclosure.........................................    37

Ms. Wendy Ehnert, Teacher, Austin E. Lathrop High School, 
  Fairbanks, Alaska
    Oral Statement...............................................    38
    Written Statement............................................    40
    Biography....................................................    42
    Financial Disclosure.........................................    43

Discussion.......................................................    43

 
   THE 2003 PRESIDENTIAL AWARDEES FOR EXCELLENCE IN MATH AND SCIENCE 
                  TEACHING: A LESSON PLAN FOR SUCCESS

                              ----------                              


                        THURSDAY, MARCH 18, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                   The 2003 Presidential Awardees for

                Excellence in Math and Science Teaching:

                       A Lesson Plan for Success

                        thursday, march 18, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, March 18, 2004, the House Committee on Science will 
hear from teachers on how the Federal Government can help improve K-12 
math and science education. Four secondary school math and science 
teachers will testify before the Committee. Each is a recipient of the 
2003 Presidential Award for Excellence in Mathematics and Science 
Teaching (PAEMST), the Nation's highest commendation for K-12 math and 
science educators.

2. Witnesses

Mr. Jonathan Roland is a teacher at Perry Hall High School in the 
Baltimore County Public Schools in Baltimore, Maryland, where he 
teaches conceptual, standard, honors, gifted and talented and Advanced 
Placement physics. Mr. Roland is also an adjunct professor at Johns 
Hopkins University, where he designed and taught ``Understanding and 
Teaching Physical Sciences in Middle School'' and ``Understanding and 
Teaching Physics in Elementary School.'' He received his Bachelor of 
Science degree in Chemical Engineering from the University of Delaware 
and his Master's degree in Teaching from Towson University.

Ms. Gail Bromiley-McGee is a science teacher at Carnegie VanGuard High 
School in Houston, Texas, and before that she taught biology at DeBakey 
High School for Health Professions. Ms. Bromiley-McGee holds a Bachelor 
of Science degree in Biology from Trinity University and she has 
completed 124 post-degree hours in biology, zoology and botany at the 
University of Texas at Austin.

Mr. Jason Cushner most recently was a teacher at Eagle Rock School and 
Professional Development Center in Estes Park, Colorado, a full-year, 
residential program for students who have dropped out or been expelled 
from high school. There he taught all levels of mathematics, from basic 
to calculus. Mr. Cushner holds a Bachelor of Science degree in Applied 
Mathematics from the University of California at Irvine, and a Master's 
degree in Secondary Math Education from Colorado College.

Ms. Wendy Ehnert is a teacher at Austin E. Lathrop High School in 
Fairbanks, Alaska, where she teaches biology, chemistry and physical 
science. Ms. Ehnert is a National Board Certified Teacher in 
Adolescence and Young Adulthood Science and she served as a Fulbright 
Exchange Teacher in Olomouc, a city in the Czech Republic. Ms. Ehnert 
holds a Bachelor's degree in Life Science from the University of 
Minnesota College of Education and a Master's degree in Teaching 
Biology from the University of Alaska, Fairbanks.

Background

    On April 26, 1983, a blue-ribbon commission appointed by the Reagan 
Administration released ``A Nation at Risk,'' a report containing 
strong language and disturbing findings on the state of education in 
the U.S. In one of its more memorable lines, the report claimed, ``If 
any unfriendly foreign power had attempted to impose on America the 
mediocre education performance that exists today, we might well have 
viewed it as an act of war.'' Included among the ``indicators of risk'' 
were international comparisons of student achievement, which revealed 
that U.S. students were never first or second on any of 19 different 
academic tests, and they scored in last place in seven of them. 
National assessments also showed a steady decline in science 
achievement scores of U.S. 17-year-olds.
    Also in 1983, President Reagan signed into a law a program 
establishing the Presidential Award for Excellence in Mathematics and 
Science Teaching (PAEMST) to identify outstanding science and 
mathematics teachers in kindergarten through 12th grade.
    The 2000 National Assessment of Educational Progress (NAEP) shows 
that large numbers of U.S. students still demonstrate only a 
rudimentary understanding of mathematics: 31 percent of 4th graders, 34 
percent of 8th graders and 35 percent of 12th graders scored below 
``basic,'' meaning that the student failed to demonstrate even partial 
mastery of the knowledge and skills that are fundamental for proficient 
work at each grade level. And, the achievement gap in NAEP math scores 
between white and black students and between white and Hispanic 
students has remained relatively unchanged since 1990, with 68 percent 
of African American 8th graders scoring below basic compared to 23 
percent of white students.
    On international assessments, U.S. performance relative to other 
nations actually declines with increased schooling. According to the 
most recent (1999) Third International Mathematics and Science Study 
(TIMSS), an assessment that evaluates the math and science performance 
of 4th, 8th and 12th grade students from 42 different countries, most 
U.S. students score above average in elementary school, but those in 
12th grade--including our most advanced students--rank among the lowest 
of all participating countries, outperformed by nearly every 
industrialized nation and ahead of only Cyprus and South Africa.

Issues in K-12 Education

    Over the years, a common theme in education reform has emerged: a 
qualified teacher is critical to the success of any K-12 science and 
math education reform effort. Yet, in response to impending teacher 
shortages, particularly in the areas of special education, math and 
science, many states have allowed individuals without appropriate 
background to teach. In fact, the 1996 National Commission on Teaching 
and America's Future found that ``more than 50,000 people who lack the 
training required for their jobs have entered teaching annually on 
emergency or substandard license.'' More recently, a survey by the U.S. 
Department of Education found that 49 percent of seventh grade 
mathematics teachers did not have the equivalent of a minor in 
mathematics, and that 32 percent of middle school science teachers did 
not have the equivalent of a minor in any of the sciences.
    A related problem is the exodus of new teachers from the 
profession, with more than 30 percent leaving within five years. High 
teacher turnover creates a continual demand for new teachers, and those 
teachers require teacher professional education and development. Partly 
as a result, many schools are moving toward the regulation of teaching 
practice, such as the use of more scripted curriculum materials--
something that may limit some able teachers from exercising their 
professional knowledge and discretion, making teaching less inviting to 
those most qualified.
    To achieve its twin goals of improving education and narrowing the 
achievement gap, ``No Child Left Behind'' requires a ``highly 
qualified'' teacher in every classroom, it raises the qualifications of 
paraprofessionals (also known as teacher aides) and it requires public 
reporting of staff qualifications. It also provides state grants to 
recruit and train teachers. In addition, loan forgiveness programs at 
the Department of Education and the Noyce Scholarship Program at the 
National Science Foundation (NSF), which seeks to encourage top math 
and science students to enter the teaching profession, are just some of 
the initiatives that have been designed to address issues of teacher 
recruitment and retention.
    At its center, however, ``No Child Left Behind'' seeks to hold 
schools accountable for the progress of their students by requiring 
that all students in grades 3-8 be tested every year in reading and 
math (and, beginning in 2007, science), and that all students make 
``annual yearly progress'' toward proficiency in these subjects. 
Failure to do so results in a school being identified as ``needing 
improvement,'' which triggers various interventions, such as additional 
funding, choices for parents and corrective actions. The reliance on 
testing has led some educators to complain about the prevalence of 
drilling, test prepping, ``teaching to the test'' and ``dumbing down 
the curriculum.''

NSF K-12 Education Programs

    President Bush's education reform initiative also called for the 
creation of a new Math and Science Partnership Program at NSF to unite 
the activities of higher education, school systems and business in 
support of improved math and science proficiency for K-12 students and 
teachers. Ultimately, Congress created complementary programs: one at 
NSF and one at the Department of Education. The NSF program awards 
grants on a peer-reviewed, competitive basis to partnerships between 
institutions of higher education and one or more school districts to 
improve math and science education. Funds are used to develop 
innovative reform programs that, if proven successful, would be the key 
to large-scale reform at the state level.
    The Department of Education program, with its program allocation 
based on a poverty/population formula, funds all 50 states, which in 
turn compete awards to math and science partnerships at the local 
level. Although similarly titled, the programs were created to be 
complementary, not duplicative. NSF funds innovative programs in 
science and math to develop and test new models of education reform, 
thereby remedying a lack of knowledge about math and science research. 
The Department of Education builds on its traditional relationships 
with school districts and schools and funds science-based teaching 
materials, curricula and training programs, with a recent focus on 
improving student achievement and teacher performance in math. The 
Fiscal Year 2004 omnibus appropriation provided the Education and the 
NSF partnership programs with approximately $150 million and $140 
million respectively. The Fiscal Year 2005 budget zeroed out the NSF 
program and transferred $120 million to the Department of Education.
    The Science Committee adopted a clear position opposing this move 
in its Views and Estimates. In part, the Committee stated:

         The Committee is especially troubled by the proposal to 
        eliminate the NSF's Math and Science Partnership Program. This 
        program was specifically authorized as part of the National 
        Science Foundation Authorization Act of 2002. The Committee 
        strongly believes that NSF is the only federal agency with a 
        proven record of selecting education projects that offer the 
        best hope to narrow the achievement gap and raise student 
        performance in math and science. Through its competitive, 
        merit-based process, NSF is uniquely qualified to use its 
        decades of experience in education research and evaluation to 
        appraise grant proposals and to strengthen the link between 
        research findings and classroom practice. The Partnerships 
        program should be funded at the authorized level of $200 
        million.

    NSF also sponsors a number of other programs through its Division 
of Elementary, Secondary, and Informal Education that are designed to 
improve pre-K-12 science, technology, engineering and mathematics 
education. Some, such as the Instructional Materials Development 
Program, are designed to develop and disseminate instructional 
materials and assessments. Others, like the Informal Science Education 
Program, are designed to promote learning outside the classroom, 
including through the media, museum exhibits and community-based 
organizations. Total funding for Elementary, Secondary and Informal 
Education at NSF--a division of the Education and Human Resources 
Directorate--totaled approximately $205 million in FY 2005, excluding 
the Math and Science Partnership program. The President's budget 
request provides $172.75 million for FY 2005.

PAEMST

    The Presidential Award for Excellence in Mathematics and Science 
Teaching (PAEMST) was established by Congress and is run by the 
National Science Foundation (NSF). The program identifies outstanding 
science and mathematics teachers, kindergarten through 12th grade, in 
each state. These teachers are to serve as models for their colleagues 
and will be leaders in the improvement of science and mathematics 
education.
    Since 1983 over 3,000 teachers have been selected to enter the 
network of Presidential Awardees. While most have remained in the 
classroom, some have become school principals, supervisors, 
superintendents and college faculty.
    Recognition is given to K-12 teachers in four award groups: (1) 
elementary mathematics, (2) elementary science, (3) secondary 
mathematics, and (4) secondary science. The secondary groups include 
middle, junior, and senior high school teachers. The award now 
alternates yearly by grade level, beginning with teachers of grades 7-
12 this year. Next year, the award will recognize teachers of grades K-
6.
    Teachers applying for the award must be nominated. Anyone may 
nominate a teacher (self-nominations, however, are not accepted), but a 
state selection committee chooses three finalists from each award group 
for recognition at the state level. A national selection committee, 
comprising prominent mathematicians, scientists and educators, reviews 
the state-level finalists and makes award recommendations to NSF and 
the President. Each award includes a $10,000 award from the NSF for the 
recipient's school and a Presidential citation. In addition, awardees 
are invited to attend an award ceremony and other Washington 
recognition events, including meetings with leaders in government and 
education.

4. Questions for Witnesses

    The panelists were asked to address the following questions in 
their testimony before the Committee:

        <bullet>  Based on the involvement you have had with federal 
        math and science programs, what are the most important and 
        effective components of these programs?

        <bullet>  What are the factors that limit the performance of 
        students and teachers in math and science? What is the single, 
        most important step that the Federal Government should take to 
        improve math and science education?

        <bullet>  What elements of your pre-service or in-service 
        training have been most helpful in meeting the daily demands of 
        working with students, developing innovative classroom 
        strategies and delivering content rich instruction to a diverse 
        group of students?
    Chairman Boehlert. The hearing will come to order. I am 
going to keep my opening remarks brief because I had the 
privilege of having breakfast this morning with our 
distinguished guests and their very avid following back there.
    Let me just say, though, that there is no issue within our 
jurisdiction that I care more deeply about than science and 
math education, especially at the pre-college level. And I 
suspect that every one of my colleagues on the dais, and there 
will be more joining us, would say the same thing. And for the 
benefit of the audience, you should know that so many of our 
colleagues here, they have about three committee meetings 
simultaneously, and despite all the study of physics in the 
early years, they still haven't figured out how to be in more 
than one place at a time, but we will have others join us 
later.
    None of the other things this committee wants to see done, 
whether it is developing a hydrogen car or maintaining a 
presence in space, none of these things can be accomplished 
unless we have the scientists and engineers to do the work and 
a scientifically literate citizenry who will support it and 
learn from it. And, of course, there is only one way we can 
create those scientists and engineers and educated citizens, 
and that is through education, starting from earliest 
childhood.
    And who will do the educating? Parents, surely, and for 
better or worse, the popular culture. But, most critical are 
our nation's teachers. The fanciest school in the world, all 
the books, everything else is secondary to a quality teacher, a 
dedicated, committed teacher in the classroom. That is why one 
of the first hearings I held as Chairman of this committee was 
with the Presidential Math and Science Teaching Awardees, and I 
promised them to make the hearing an annual event, and a lot of 
people on Capitol Hill found it unusual that we would invite 
teachers. We talk about teachers all the time, why not invite 
them and listen to them?
    You would think that this sort of hearing would be 
happening all the time, but, unfortunately, it is not the case. 
Instead, Congress talks constantly about education, but it 
rarely listens, and it listens least of all to the most 
important experts: actual classroom teachers, the folks at the 
front lines of our nation's educational system.
    So today's hearing offers us a rare opportunity to hear 
directly from teachers, and not just any teachers, I might add, 
but those who have been recognized as the very best. So we are 
eager to hear what you have to say. We want especially to learn 
how the Federal Government can help you do your jobs, which 
federal programs have been helpful, and which have not worked. 
Please be as candid and specific in your answers as you can be, 
and describe particular experiences that you have had. We hear 
policy prescriptions and theories all the time. We want to hear 
from you about real life.
    But before we begin, let me congratulate each of you, not 
only for winning this prestigious award, but for doing the 
incredible work that enabled you to earn it. We want to hear 
from as many of you as possible, so we will go through our 
usual hearing listening to testimony and asking questions to 
our panel of four teachers, and then, if time allows, we will 
open the floor for a while to comments from other awardees.
    Let me point out that--and this is one area of 
responsibility that we have--at 10:45, I have to temporarily 
take leave from the Chair and I will ask someone else to sit 
in, because I have to go to an important meeting for a 
Committee that didn't even exist two years ago. It is called 
the Committee on Homeland Security, and I would suggest to all 
of you that probably there is nothing more important on our 
overall agenda, particularly in these difficult times, than 
protecting us and our homes and our neighborhoods and our 
communities, and that is what this new Committee--bipartisan 
Committee of Homeland Security is all about.
    With that, let me have the privilege of introducing my 
distinguished Ranking Member of the Committee, the gentleman 
from Tennessee, Mr. Gordon.
    [The prepared statement of Mr. Boehlert follows:]

            Prepared Statement of Chairman Sherwood Boehlert

    I'm going to keep my opening comments brief so we can get to our 
impressive witnesses without further delay.
    Let me just say, though, that there is no issue within our 
jurisdiction that I care about more deeply than science and math 
education, especially at the pre-college level. And I suspect that 
every one of my colleagues on this dais would say the same thing.
    None of the other things this committee wants to see done--whether 
it's developing a hydrogen car or maintaining a presence in space--none 
of these things can be accomplished unless we have the scientists and 
engineers to do the work and a scientifically literate citizenry who 
will support it and learn from it. And, of course, there's only one way 
we can create those scientists and engineers and educated citizens, and 
that's through education--starting from earliest childhood.
    And who will do the educating? Parents, surely, and, for better or 
worse, the popular culture. But most critical are our nation's 
teachers. That's why one of the first hearings I held as chairman of 
this committee was with the Presidential Math and Science Teaching 
Awardees, and I promised then to make the hearing an annual event.
    You'd think that this sort of hearing would be happening all the 
time, but, unfortunately, that's not the case. Instead, Congress talks 
constantly about education, but it rarely listens, and it listens least 
of all to the most important experts--actual classroom teachers, the 
folks at the front lines of our nation's educational system.
    So today's hearing offers us a rare opportunity to hear directly 
from teachers--and not just any teachers, but those who have been 
recognized as the best. So we're eager to hear what you have to say.
    We want especially to learn how the Federal Government can help you 
do your jobs. Which federal programs have been helpful and which have 
not worked? Please be candid and specific in your answers, and describe 
particular experiences that you have had. We hear policy prescriptions 
and theories all the time; we want to hear from you about real life.
    But before we begin, let me just congratulate each of you, not only 
for winning this prestigious award, but for doing the incredible work 
that enabled you to earn it. We want to hear from as many of you as 
possible, so we'll go through our usual hearing listening to testimony 
and asking questions to our panel of four teachers--and then, if time 
allows, we'll open the Floor for a while to comments from any of the 
other awardees.
    I'm eager to hear your testimony.

    Mr. Gordon. Thank you, Mr. Chairman. I am pleased to join 
you in welcoming our distinguished witnesses to today's 
hearing. Our witnesses, and many of their colleagues in the 
audience, have come to Washington to receive the Presidential 
Award for Excellence in Mathematics and Science Teaching. These 
are men and women who serve with distinction on the front lines 
in K to 12 science and math education.
    As the son of two teachers, I admire the skill and 
dedication of these outstanding teachers, and extend my warmest 
congratulations to each of you. I would particularly like to 
acknowledge and congratulate two teachers from Tennessee who 
are awardees: Ms. Patricia Littlejohn from Freedom School in 
Franklin, and Ms. Samantha Stevens from Grundy County High 
School in Coalmont.
    There is no more important job than the one these teachers 
perform every day. Their efforts inspire the next generation of 
scientist and engineers who will make the discoveries and 
create the technology marvels of the future. But equally 
important, these teachers help prepare all children who enter 
their classroom to function in an increasingly complex world, 
to be informed citizens, and to lead fulfilling lives.
    Today the Science Committee has the privilege of hearing 
from some of the best math and science teachers in the Nation. 
I hope to learn what attracts you to teaching careers, and the 
factors that led you to outstanding success in math and science 
as teachers, and what it will take to replicate your success 
and increase your numbers. I am particularly interested in your 
views on such key issues as: how to improve the preparation of 
new math and science teachers; what constitutes effective 
professional development activities; and what factors influence 
teacher retention. I would also appreciate hearing about your 
experience with federally sponsored teacher professional 
development programs and activities that result in new and 
hopefully improved teaching materials. Specifically, what kinds 
of federal actions and programs do you believe have been most 
effective in improving math and science education?
    I want to congratulate the Chairman for convening a hearing 
to honor this distinguished group of teachers, and, again, I 
want to offer my congratulations to our witnesses on their 
Presidential Awards, and I appreciate their attendance before 
the Committee and look forward to their discussion today.
    Thank you, and I yield back the balance of my time.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Mr. Chairman, I am pleased to join you in welcoming our 
distinguished witnesses to today's hearing.
    Our witnesses, and many of their colleagues in the audience, have 
come to Washington to receive the Presidential Award for Excellence in 
Mathematics and Science Teaching. These are the men and women who serve 
with distinction on the front lines of K-12 science and math education.
    As the son of two teachers, I admire the skill and dedication of 
these outstanding teachers and extend my warmest congratulations to 
each of them.
    I would particularly like to acknowledge and congratulate two 
teachers from Tennessee who are awardees--Ms. Patricia Littlejohn from 
Freedom Middle School in Franklin and Mrs. Samantha Stevens from Grundy 
County High School in Coalmont.
    There is no more important job than the one these teachers perform 
every day. Their efforts inspire the next generation of scientists and 
engineers, who will make the discoveries and create the technological 
marvels of the future.
    But equally important, these teachers help prepare all the children 
who enter their classrooms to function in an increasingly complex 
world, to be informed citizens, and to lead fulfilling lives.
    Today, the Science Committee has the privilege of hearing from some 
of the best math and science teachers in the Nation.
    I hope to learn what attracted you to teaching careers and the 
factors that led to your outstanding success as math and science 
teachers--and what it will take to replicate your success and increase 
your numbers.
    I am particularly interested in your views on such key issues as 
how to improve the preparation of new math and science teachers, what 
constitute effective professional development activities, and what 
factors influence teacher retention.
    I would also appreciate hearing about your experiences with 
federally sponsored teacher professional development programs and 
activities that resulted in new, and hopefully improved, teaching 
materials. Specifically, what kinds of federal actions and programs do 
you believe have been most effective in improving math and science 
education?
    I want to congratulate the Chairman for convening a hearing to 
honor this distinguished group of teachers.
    Again, I want to offer my congratulations to our witnesses on their 
presidential awards. I appreciate their attendance before the 
Committee, and I look forward to our discussion.
    Thank you and I yield back.

    Chairman Boehlert. Thank you very much, Mr. Gordon. And as 
our witnesses entered the room, they received a standing 
ovation from the audience, most of whom are Presidential 
Awardees themselves. So I would suggest that we start this 
hearing, before we introduce our distinguished panel, by giving 
all these Presidential Awardees a standing ovation from the 
Congress.
    Thank you most sincerely for what you are doing so well. 
You got this award the old-fashioned way. You earned it. Our 
panel today consists of Mr. Jonathan Roland. Mr. Roland is a 
teacher at Perry Hall High School in Baltimore, Baltimore 
County. Right, Baltimore County? Baltimore County Public 
Schools in Baltimore, Maryland, where he teaches conceptual, 
standard, honors, gifted and talented, and Advanced Placement 
physics. Mr. Roland is also an adjunct professor at Johns 
Hopkins University where he designed and taught ``Understanding 
and Teaching Physical Sciences in Middle School'' and 
``Understanding and Teaching Physics in Elementary School.'' He 
received his Bachelor of Science degree in Chemical Engineering 
from the University of Delaware, and has Master's Degree in 
Teaching from Towson University.
    For the purposes of introduction, the Chair recognizes Ms. 
Jackson Lee of Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
add my appreciation and accolades for the outstanding audience. 
We have a lot of hearings, but sometimes our audience ranges 
from those who like us to those who dislike us. We are 
delighted that we all like each other in this room today and 
applaud everyone that is here. I associate myself with the 
words of the Distinguished Chairman and the Distinguished 
Ranking Member. This is an exciting day for us and a very, very 
important hearing.
    I start my remarks very often in this Science Committee by 
saying, ``Science and technology was the work of the 21st 
Century.'' Obviously, I started on this committee before the 
turn of the century. How does that sound? And I have always 
said how important math and science is, and making it where it 
is so attractive to our young people.
    How exciting it is to look at these awardees who have 
obviously done so, and enjoyed their work. Let me say that I am 
a mom of a young teacher, and it is exciting----
    Chairman Boehlert. Aw.
    Ms. Jackson Lee [continuing]. To see her excel in the 
teaching field, and might I just add that one of her very fine 
products was to get her first grade class to be the champion 
science project winners for her local community in the Houston 
Independent School District.
    And now they are all going to be scientists. It gives me 
great pleasure to celebrate all of you, the Nation's best and 
brightest teachers in science and mathematics. I am very 
pleased to announce that one of those teachers, among many 
others, who is here to join us today is from my district and 
our district and our city, the wonderful Ms. Gail Bromiley-
McGee, and we are so happy to have her here today.
    Ms. McGee holds a Bachelor of Science in Biology from 
Trinity University, has completed 124 post-degree hours in 
biology, zoology and botany from the University of Texas in 
Austin. She received a Presidential Award for Excellence in 
Mathematics and Science Teaching while teaching biology at the 
William DeBakey High School for Health Professions in Houston, 
Texas. My colleagues are aware of Dr. DeBakey and his 
outstanding contributions to medical science. She now teaches 
biology at Carnegie Vanguard High School, also in Houston. It 
is amazing that she has earned this honor after only teaching 
for about 10 years. Obviously, barely a girl herself, Ms. McGee 
has said that she sees her responsibility as a dual role: one 
to help students make informed decisions, not just as students, 
but as people and as voters. ``I want them to understand 
sexuality, nutrition and big ideas like that.'' Secondly, I 
feel it is critical that science is grounded in experiences so 
that the things we learn about are tied into real life and 
become a concrete part of their lives. I can just imagine Ms. 
McGee utilizing the finding of a very special small new planet 
as a science question. I commend her for those sentiments.
    Science is often confused with technology. Science is not 
about sitting at a computer or playing with chemicals only. 
Science is a way of approaching tough problems and answering 
hard questions using logic and experimentation, and I, too, 
look forward to hearing from all of the panelists, and 
particularly Ms. McGee for her understanding of how we can best 
educate our children. It is a skill that helps people make real 
decisions about their lives and the world they live in. It is 
vital that our children develop the life skills and savvy that 
science training offers. The City of Houston is very lucky to 
have Gail McGee to help guide our children, and I hope today in 
our panelists we will hear how the Federal Government can 
interface with your efforts, how funding impacts what you do, 
and, as well, what we can do better.
    Your impact will be felt for years, if not for generations 
to come, and I am so delighted to welcome you to the Science 
Committee. I conclude, Mr. Chairman, by saying I likewise have 
the same difficulty in the Homeland Security Committee, which I 
am on, and presently I am also serving as a moderator for my 
Committee that is going on right now on immigration, so I beg 
your indulgence as I depart, but I look forward to hearing as 
much as I can. I thank the Chairman and Ranking Member. I yield 
back.
    Chairman Boehlert. Thank you. And next on our list, Mr. 
Jason Cushner was most recently a teacher at Eagle Rock School 
and Professional Development Center in Estes Park, Colorado, a 
full-year residential program for students who have dropped out 
or been expelled from high school, a challenging and difficult 
assignment. There, he taught all levels of mathematics from 
basic to calculus. Mr. Cushner holds a Bachelor of Science 
degree in Applied Mathematics from the University of California 
at Irvine, and a Master's degree in Secondary Math Education 
from Colorado College. Let me point out to the audience that 
Mr. Cushner is engaged and will be married on August 28. He had 
the good judgment to select the Finger Lakes region of Upstate 
New York, my neighborhood, for the ceremony, and you are all 
invited.
    Next, Ms. Wendy Ehnert is a teacher at Austin E. Lathrop 
High School in Fairbanks, Alaska, where she teaches biology, 
chemistry, and physical sciences. Ms. Ehnert is a National 
Board Certified Teacher in Adolescence and Young Adulthood 
Science, and she served as a Fulbright Exchange Teacher in the 
Czech Republic. Ms. Ehnert holds a Bachelor's degree in Life 
Science from the University of Minnesota College of Education 
and a Master's degree in Teaching Biology from the University 
of Alaska, Fairbanks.
    The Chair recognizes the Distinguished Vice Chairman of the 
Subcommittee Mr. Gutknecht for one minute.
    Mr. Gutknecht. Thank you, Mr. Chairman, and I think on 
behalf of all of our colleagues we are delighted to have all of 
you here. You may not realize this, but we spend an awful lot 
of time on this committee trying to figure out how we can 
encourage more interest in the whole issue of mathematics and 
science because we know that is one area where we fall behind.
    I want to say a special welcome to Mark Ryan, who is here 
from Willow Creek Junior High School in Rochester, Minnesota, 
where I call home, and I want to say a special thank you to Ms. 
Ehnert who is originally from Winona, Minnesota; went to 
Madison Elementary School, Winona Senior High School, and the 
University of Minnesota, so we are doubly represented here 
today, and we are proud of it, Mr. Chairman.
    Chairman Boehlert. Thank you so much. Chair recognizes Mr. 
Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. I look forward to 
that wedding at the Finger Lakes.
    Chairman Boehlert. Yeah, you go up Route 81 and----
    Mr. Gilchrest. All right. We will stop at the Baseball Hall 
of Fame along the way. I want to welcome all the teachers here 
this morning, and especially Mr. Jonathan Roland from the First 
District of Maryland. For you, Mr. Roland, and for the other 
teachers, your dedication to this process of fusing a spirit of 
opportunity to these young people is profoundly important, and 
I would hope--now, you follow any direction you want to follow 
in life--but I would hope that you understand that importance 
that you are buttressing the pillars of civilization, without a 
doubt.
    And so, your expertise and your feeling of joy for each one 
of those young people that you deal with on a daily basis, I 
hope that lingers with you, so that your job is fundamentally 
sound and fundamentally important. And we want to express our 
strong appreciation for the things that you are doing. I can't 
help--and I will close with this, Mr. Chairman--I often come 
across people that have a joy in reading as well, and recently 
in the last few years I have read two books that I think each 
of you would find profoundly interesting, if you haven't read 
them already. One is Consilience by E.O. Wilson. It is a unity 
of knowledge. And the other one is one I just finished--
fascinating--called Measuring Eternity by Gorst, and it talks 
about, over the last 3,000 years, people trying to understand 
how old the Earth was--or is, and we finally figured out with 
Hubbell, Mr. Chairman, so we would want to hold on to the 
Hubbell Space Mission. I yield back, Mr. Chairman.
    Chairman Boehlert. Let me point out that those remarks from 
the heart come from one of yours, a teacher--former teacher, 
and people sometimes will say to Congressman Gilchrest, ``do 
you miss teaching now that you have come to Congress,'' and it 
is reported that his answer was ``no, I am still teaching, but 
only at a lower level.'' Chair recognizes the gentlelady from 
California, Ms. Woolsey.
    Ms. Woolsey. I can't one-up that one, Mr. Chairman. First 
of all, the four of you, it is very seldom that we sit and look 
out at a panel of young people, professionals your age, and it 
is very refreshing. And, what I am hoping you will tell us 
today is how we can keep you interested and involved in this 
field so that we can see you again in over the years, and you 
will share your experience and wisdom.
    And, now, Mr. Cushner, I want you to know that you could 
ask the Chairman to marry you. He is allowed to do that. We can 
marry couples, and I will tell you, it would be a real 
experience.
    Chairman Boehlert. Exactly. Thank you very much. That is a 
new one. I haven't faced that challenge before. The Chair 
recognizes the distinguished gentleman from Michigan, Mr. 
Smith.
    Mr. Smith. Well, again, thank you very much, certainly to 
our witnesses, to all of the teachers. A couple from Michigan 
that I would acknowledge, and that is Angela Newing and Jeffrey 
Bradley. When we were passing the legislation for Math and 
Science Partnership and having a review in my Subcommittee on 
Research, I asked the witnesses the following question: ``To 
stimulate students and have a successful venture for those 
students, and interest in math and science, to the extent that 
maybe that kind of education in those years are more like a 
lighting of a fire to develop interest and enthusiasm rather 
than filling a container with just information, when is the 
fire lit, especially in the area of math and science?'' And the 
reaction was maybe when they are four years old, five years 
old, maybe in the first, second, and third and fourth grade, 
and if there is no fire then, it is really difficult to 
rekindle that fire later on. But, you have not only made 
success in your individual schools, but set an example.
    And just as a footnote, I am introducing a bill with a lot 
of the members of this committee to try to get private sector 
industry more involved in working with schools to develop that 
kind of interest in students in math and science with a 
Congressional Medal. Anyway, my compliments, my 
congratulations, and good luck on your future. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Smith follows:]

            Prepared Statement of Representative Nick Smith

    I want to welcome each of the witnesses here today, and take this 
opportunity to thank you for the fantastic work that you are all doing 
in our schools to improve math and science education.
    During consideration of legislation to authorize the Math and 
Science Partnership Program two years ago, I asked our witnesses to 
consider the following question: if education is more the lighting of a 
fire than filling a container, when is that fire lit for math and 
science? They all had different answers. Some said third grade. Others 
said kindergarten. Yet they all agreed that our greatest failure--and 
our greatest challenge was that too many children failed to experience 
the spark at all. As a result, too few received the math and science 
education they deserved.
    Here on the Science Committee we are working to improve the 
American educational system so that it produces more young people that 
have the skills and interest in technical fields to compete for jobs in 
the increasingly global economy. My latest project is creating a 
Congressional award for businesses and associations that partner with 
K-12 schools to improve math and science education. I'd encourage the 
witnesses to go to my web site at http://www.house.gov/nicksmith/ and 
look over the draft legislation. If any of you have comments or 
suggestions, feel free to e-mail me through my web site or give my 
Washington office a call.
    As you can imagine, my colleagues and I spend a lot of time talking 
about you, but perhaps too little time listening to you. So it is 
indeed a great honor to have you here to explain how you have been able 
to light the spark of interest and improve the achievement of all 
students.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    First, I would like to thank the Chair and Ranking Member for 
calling this hearing. Today we are here to honor a group of teachers 
who have received national recognition for their excellence as science 
and math teachers, and to explore some of the factors that influence 
the recruitment, professional development and retention of science and 
math teachers.
    It is very important that we meet to recognize the important 
contributions made by these individuals. Teachers improve the lives of 
children and their families and strive to give voice to their 
legitimate professional, economic and social aspirations, to strengthen 
the institutions in which we work, to improve the quality of the 
services we provide, to bring together all members to assist and 
support one another and to promote democracy, human rights and freedom 
in our union, in our nation and throughout the world.
    I believe that education must be our number one national priority. 
In fact, during my almost thirty years as a legislator, I have fought 
to ensure that education is on top of the legislative agenda.
    Without teachers, this nation could not flourish. A skilled 
workforce is the essential fuel to propel the economy and ensure a high 
quality of life. It is absolutely critical to the success of our 
nation's economy that we continue to produce a scientifically literate 
workforce. It is also very important that we continue to aggressively 
recruit more minority and women students into careers in science and 
technology.
    In order to attract and keep talented teachers like the ones who 
are here today, we must re-emphasize our commitment to education. Now 
is the time to increase education spending. Education is not a luxury 
item that can be trimmed when more enticing budget items beckon. It is 
an essential element that should be our highest national priority.
    It is time to take action to ensure the best possible education for 
our children.

    Chairman Boehlert. Thank you all very much, and if there is 
no one else to seek recognition, we will go right to our 
distinguished panel. Mr. Roland, you are up first.

  STATEMENT OF MR. JONATHAN ROLAND, TEACHER, PERRY HALL HIGH 
                  SCHOOL, BALTIMORE, MARYLAND

    Mr. Roland. Thank you. Thank you very much. This is amazing 
for us, and we would be happy to come down anytime and testify 
for you.
    Sometimes I give my students a question to answer on a 
test, and they come up with an answer that is completely--seems 
disconnected to the question, but I hope that what I say today 
will somehow connect to what you want us to say, to hear.
    We look around D.C. and it is amazing. It is so cool. We 
got the monuments. We got the structure--the power structure of 
everything that is down here. Look around at it and marvel, and 
then realize that I teach physics and it is my understanding 
that it is all either going to burn up or it is going to be 
frozen sometime in the future. It is all going to be gone, but 
look at the people in this room and the people that you see. It 
is my belief that long after the sun has gone and the Earth has 
burned to a cinder that these people will still be around. 
Every person, then, is more important than all of the power and 
all of the money, and everything that you see in D.C. and in 
this nation. Each person is more valuable because all that is 
going to be gone. People are going to be around forever.
    And when I think about that and think about my life, and 
you think about your life, I don't--first, I know I am going to 
die. I know it is going to be over, and I don't want those last 
five minutes of my life to be the first time that I thought 
about what my life was all about. I don't want to look back and 
say, ``what was that all about?'' when I am lying there. So, I 
want that bigger context to envelop everything that I say, 
because this is the truth.
    My student's greatest need, then, is to develop a nose for 
the truth and the skills to track it down. They are constantly 
being bombarded with messages from people who want to sell them 
things, whether it be the newest deodorant, the immoral 
decision, or the extreme political view.
    One of my favorite sells is for a deodorant. It is called 
Axe, and I saw this ad. It shows a boy with a stick of Axe 
deodorant in one hand and girls' names and phone numbers 
scrawled over his other hand--his other arm. And I tell my 
students--well, they get the message: use Axe and you will be a 
babe magnet. I tell them the advertisers are lying. I know. I 
tried it. I tell them even those phone numbers are fake. I 
know. I have tried them.
    They laugh, but they also realize that they are going to be 
puppets of the sell unless they are equipped to sniff out 
truth. Now, NSF Programs have focused my attention and my 
energy on nurturing students who are immune to arguments that 
play on immaturity, or arguments that are simply based on 
authority or the power of persuasion. But before I share the 
role that NSF has played in helping me develop my students nose 
for truth, I want to share with you a--that we need to think 
about traditional teaching methods in light of a story that my 
friend Chuck told me of his trip to Yellowstone National Park.
    My friend Chuck was traveling to Yellowstone National Park, 
and on the way in, he saw billboards that said ``Please do not 
feed the bears.'' He went in through the entrance and they gave 
him literature, and there were things that said, ``Please do 
not feed the bears.'' As you drive through the park, there are 
signs--reminder signs--and they remind you, please, do not feed 
the bears. And he said, in between the reminder signs, there 
were folks pulled over to the side of the road and they were 
getting out their picnic baskets and they were feeding the 
bears.
    Well, he talked to a ranger and he said, ``Mr. Ranger, what 
is wrong with these people? Can't they read? Are they criminal? 
Why do they feed the bears?'' Well, the ranger told him 
something that changed his life, and it changed my life, too. 
It was an epiphany. The ranger said, ``Mister, you don't know 
the worst of it. The saddest part of this story is when the 
tourist season is over and we have to drive around in our 
pickup trucks and carry away the carcasses of bears who have 
starved to death at the side of the road waiting for someone to 
feed them because they have forgotten how to find food on their 
own.'' And I thought, ``That is what I was doing with my 
classes. I was feeding them science every day.'' I didn't want 
to drive by my high school five years from now and see Sierra 
sitting there on the side of the road waiting for someone to 
feed her because she has forgotten to find knowledge on her 
own.
    I desperately wanted to produce students who eventually did 
not need me, but who could independently find truth. And NSF 
calls this process inquiry, and they are champions and prophets 
of inquiry. They have given us opportunities to practice 
inquiry, like, I had a research experience for teachers down at 
Johns Hopkins where I worked in the labs, and I brought home 
authentic research opportunities to my students, and now they 
do this every day--every other--a couple times a week.
    They guided and they funded inquiry curriculum like active 
physics, which changes the lesson paradigm from plug the 
numbers into the formulas to find answers to these real-life 
problems. They have given us accountability and affirmation 
through this Presidential Award.
    I am not an extremely together teacher. You can ask my 
students. My socks don't even match, typically, but my wife 
dressed me today, so I am okay. But I have given the--I have 
been given extraordinary focus and extraordinary opportunities 
through the National Science Foundation.
    You have got to love science. The world is filled with 
interesting questions. My six-year-old, Jonny, he asked me the 
other day, ``Dad, how can we see really big things like trees 
and like buildings when our eyes are so small?'' How do you 
guys put a blank sheet of paper into a Xerox machine and out it 
comes looking like this? You know how that happens? No, you 
don't. No one does. No one does. You and I could--you know, you 
know. You and I could make a machine that could put ink on a 
piece of paper but it wouldn't look like this. How does that 
happen? It is almost miraculous.
    How about it is late at night. You are in bed. It is cold 
outside. It is, like, two in the morning, and all of a sudden, 
you realize you shouldn't have had that last glass of water 
before bed because you gotta go. So you get out of bed and you 
get to the bathroom and your feet touch that cold tile. ``Brr. 
Brr,'' until you get to the fuzzy mat, yes. Right beside the 
bathroom is your, like U-shaped right there and you are there 
and it is cozy. Hey, did you know the mat and the tile are 
exactly the same temperature? Why does one feel so chilly and 
the other feel so cozy? I am not going to tell you.
    Well, how about this. Close your eyes for a moment. I am 
not sure of the procedures, if you are allowed to close your 
eyes, but if you are, close your eyes real quick. Okay. You 
hear it? Okay. While your eyes were closed, I spilled water on 
one of my pant legs. Can you tell which one the water was 
spilled on? Mr. Ehlers?
    Mr. Ehlers. Doctor.
    Mr. Roland. Dr. Ehlers, you should know.
    Mr. Ehlers. You spilled it on your left anterior appendage.
    Mr. Roland. It is. Now, how do you know that one--I better 
ask Chairman Boehlert because you may know. How do you know 
that that one is wet? Well, first, do you agree?
    Chairman Boehlert. Because Dr. Ehlers told me.
    Mr. Roland. Well, I guess we have a lot of work to do. That 
is an appeal to authority. Why does it look--why do you know 
that is the one? Are you psychic? No, why? Because it looks----
    Chairman Boehlert. It looks wet.
    Mr. Roland [continuing]. Wet. What makes it look wet? What 
is your observation?
    Chairman Boehlert. Well, it is darker than the rest of your 
slacks.
    Mr. Roland. Okay. Why is it that it is darker? Well, what 
color is water?
    Chairman Boehlert. Clear.
    Mr. Roland. Why does it make it look darker? Well, I am not 
going to tell you because that is not the way we do science, is 
it? We will teach you how to talk directly to the universe and 
find out without deferring to some authority. If we don't make 
our students dig and scratch and claw and argue to obtain 
knowledge through direct interaction with the universe, but 
instead hand them knowledge on a silver platter of textbooks or 
direct assertions by the teacher, they become gullible and 
lazy.
    I think, now, I can give you my wish list. Can I do that, 
to finish up?
    Please continue to provide teachers with effective 
opportunities to see and practice inquiry through research 
experience and through focused in-service trainings so we can 
develop our own noses for truth and get equipped to provide 
noses of truth for our students. And please, do for curriculum 
what the Food and Drug Administration does for pharmaceuticals 
and surgical procedures. Protect us from the bad ones and help 
us develop good ones. I have encountered countless curricular 
options and educational ideas that were advised by many people 
who had very strongly held, but uninformed and fickle, personal 
views of what good teaching looks like. I would rather do 
something that has been tested, and I don't like people 
continually changing the targets.
    Along the way, continue to dangle carrots in front of us. 
It takes very little to motivate a teacher, but we need a 
personal justification for putting national standards on our 
already-packed to-do list. Empowering individual teachers is a 
very efficient use of resources. We return so much on your 
investment because we intrinsically love what we do.
    Thank you very, very much. I have never done this before.
    [The prepared statement of Mr. Roland follows:]

                 Prepared Statement of Jonathan Roland

    My students' greatest need is to develop a nose for truth and the 
skills to track it down. NSF programs have successfully focused my 
attention and energy on meeting this greatest need through developing 
standards and curriculum and through providing opportunities and 
carrots.
    My students are constantly bombarded with messages from people who 
want to sell them things, whether it be the newest deodorant, the 
immoral decision, or the extreme political view.
    One of my favorites sells is for a deodorant called AXE. The ad 
shows a boy with a stick of Axe deodorant in one arm and girls names 
and phone numbers scrawled all over his other arm. My students get the 
message, ``Use Axe and you will be a babe magnet.'' I tell them, ``They 
are lying. The message is a fraud. I know. I've tried it.'' ``Even the 
phone numbers are fake.'' ``I know, I've tried them.''
    They laugh, but they also realize that they will be puppets of the 
sell unless they are equipped to sniff out truth.
    Before I share the role that NSF has played in equipping me to give 
my students noses for truth, I'd like to frame the nature of our 
challenge. Chuck, my friend, went on a vacation to Yellowstone National 
Park. He said on his way into Yellowstone he passed billboards 
welcoming him to the park and informing him that it was against the 
rules to feed the bears. As he entered, he received literature that 
told him not to feed the bears. As he drove through the park he passed 
reminder signs that said, ``Do not feed the bears.'' And in between the 
reminder signs he saw, you guessed it, people feeding the bears.
    He talked to a ranger and asked, ``Mr. Ranger, sir, what is wrong 
with people? Can't they read? Are they all criminals? Why are they 
feeding the bears?'' The ranger told him something that changed my 
life. The ranger said, ``Mister, you don't know the worst of it. The 
heartbreaking part of all of this is when tourist season ends. We have 
to ride around in our pickups and carry away the carcasses of bears who 
have starved to death on the side of the road waiting for someone to 
feed them because they have forgotten how to find food on their own.''
    AAAAARGGHH. That was what I was doing in my classes, feeding 
students science every day. I had to change. I didn't want to drive by 
the high school five years from now and find Julio sitting on the 
sidewalk starving for knowledge because no one was feeding him anymore 
and he had forgotten how to find knowledge on his own.
    NSF has convinced me that the key to producing students who can 
independently sniff out truth is the spirit of inquiry.
    The world is filled with interesting questions. My six-year-old 
son, Jonny, asked me, ``Daddy, how can we see really big things like 
trees or houses when our eyes are so small?''
    How can you put a blank paper into a machine and have it come out 
like this? You or I could make a machine that puts ink on paper--
SPLAT--but it would look more like a Rorschach test.
    Or how about this. Close your eyes a moment. (Spill water on 
pants.) While your eyes were closed, I spilled water on one of my pant 
legs. I want you to try and pick which one. I am probably not the first 
person you've seen wet his pants while giving testimony to the 
Committee.
    Good guess. How did you know? Did you peek? Are you psychic? What 
did you observe that let you know which leg was wet?
    Looks wet. Good inference. But what did you observe that made it 
``look wet?'' Looks darker. Right. Wet things look dark. Now tell me, 
what color is water? Why would clear water make things look dark?
    No I am not going to tell you. That would not be how we do science. 
We teach you to talk to the universe yourself and find out without 
deferring to some authority.
    I am not an extraordinary teacher, but I have been given 
extraordinary focus and opportunities by NSF. I can see now how the NSF 
was like a fairy godmother behind the scenes making sure that my 
pumpkins turned into carriages and my mice became horses.
    Like most teachers, I had plenty of enthusiasm and love, but I did 
not know much and I could not do much. NSF guided my energy through 
national standards. I have been presented with countless curricular 
options and advised by many people who have strongly held, but never 
critically examined, personal views of what good teaching looks like. I 
didn't know exactly what or how to teach because people were 
continually changing the targets.
    You can do for curriculum what the Food and Drug Administration 
does for pharmaceuticals and surgical procedures. Protect us from the 
bad ones and help us know how to develop good ones.
    Please continue to provide teachers with effective opportunities to 
see and practice inquiry through research experiences and focused in-
service training so that we develop our own noses for truth and get 
equipped to nurture noses for truth in our students.
    Along the way, continue to dangle the carrots in front of us. It 
takes so little to motivate a teacher, but we need a personal 
justification for putting national standards on our already packed ``to 
do'' list. A couple hundred dollars, a course credit, and we will 
return so much on your investment because we intrinsically love what we 
do.

                     Biography for Jonathan Roland

    Even as a child I wanted to teach so badly that I created clubs 
where I could teach my little friends. I formed a karate club once so 
that I could teach karate and I didn't even know karate. I am addicted 
to the rush of watching the lights go on and of equipping students with 
fresh skills, new knowledge or great attitudes. Now as an adult, I 
still get headaches and unbearable agitation when I have no opportunity 
to teach, so I teach Sunday School on the weekends and graduate classes 
and institutes during the Summer. I am perpetually amazed that 
Baltimore County pays me to teach. I would be happy to pay them for the 
opportunity--although I'd rather that information didn't get back to 
payroll. I'd be happy enough, but my four children wouldn't eat.
    I didn't want to begin teaching without ever having been outside of 
a classroom, so I earned a degree in Chemical Engineering and spent a 
few years as an engineer before I returned to school to earn my Masters 
in Teaching and certification.
    I could easily write a book entitled, ``Everything I Need to Know 
About Teaching Seems to Continually Elude Me.'' By what I used to think 
was serendipitous happenstance, but have recently realized has been the 
result of the hard work and strategizing of many wonderful people 
behind the scenes, I have learned I have been given great opportunities 
to improve my teaching.
    I believe that science is an interactive adventure of learning to 
talk to the universe, rather than a guided tour down clearly marked and 
established pathways. This is why in addition to traditional laboratory 
experiences, my students have frequent, significant, authentic outings 
into the unknown. Students choose and direct their own projects, 
studying chocolate chips melting, marshmallows in a microwave, and how 
the weight and length of arrows affects their penetrating power. 
Students present their results to each other for peer review and 
develop a nose for discovering truth through scientific habits of mind.
    I frequently engage in informal science lessons to neighborhood 
children, serve as a judge at private and public school science fairs, 
and engage adults in science activities at parties. I try to seize 
every opportunity to share the rich, fulfilling, exciting experience of 
science with children and adults whose passion for science might not 
yet have been set aflame.
    Science cannot be lived vicariously; students must embrace 
exploration and learn to talk to the universe personally. Nothing 
rewards me more than when my students initiate and conduct 
investigations. I love seeing a class mature from an orchestra into an 
organism, a community of learners.
    Following, in resume format, is some of my history.

A. Formal Education

1992, Master of Arts in Teaching (MAT), Towson University.

1988, Bachelor of Science in Chemical Engineering (BS ChE), University 
        of Delaware. From childhood I wanted to teach, but I wanted to 
        bring more than education into the classroom. I chose 
        engineering to gain a strong grasp on the content and process 
        of my discipline, and five years in the chemical engineering 
        profession gave me valuable authentic experience to share with 
        my students and shape my pedagogy.

B. Teaching Experience

1997-Present, Teacher, Perry Hall High School, Baltimore County Public 
        Schools. Taught conceptual, standard, honors, gifted and 
        talented, and Advanced Placement physics.

1997-Present, Adjunct Professor, Johns Hopkins University. Designed and 
        taught three graduate physics courses and two graduate seminars 
        on action research and leadership.

1992-1997, Teacher, Patapsco High School, Baltimore County Public 
        Schools. Taught earth science, physical science, aerospace 
        science, standard, honors, gifted and talented, and advanced 
        physics.

C. Professional Development

National Board for Professional Teaching Standards Adolescence and 
        Young Adulthood Science Certification, 2001. Through deep 
        reflection on my practice in the light of the National Board's 
        high standards, I demonstrated accomplished teaching and a 
        commitment to strengthening our profession.

Physics Advisory Board at University of Maryland Baltimore County 
        (UMBC). I shared ideas and concerns with high school, 
        university and community college faculty and developed 
        innovative programs like the University/High School faculty 
        visitation partnership.

Research Experience for Teachers (RET) at the CISST Engineering 
        Research Center at Johns Hopkins University (JHU). A Summer of 
        robotics research with faculty at JHU inspired me to design 
        authentic, self-directed, intrinsically meaningful research 
        experiences for my classroom and to teach my students that 
        forming a worthwhile research question is one of the biggest 
        challenges in conducting research.

Continual efforts to grow in my content, pedagogical, and technological 
        understanding and proficiency through courses, workshops and 
        conventions. Engaged in many professional development 
        activities including Teachers Teaching with Technology, AP 
        Physics workshops, Eisenhower Professional Development 
        Conferences, Physics is Phun lecture-demonstration series, IEEE 
        Power Engineering Society meetings, Great Courses(r) and other 
        courses focused on content, expectations, learning, and 
        thinking skills.

D. Professional Service

``Taking it to the Streets--a high-frequency, high-stakes interactive 
        homework technique'' Presentations at the 2002 Eisenhower 
        Professional Development Conference and the Fall 2002 MAST 
        Convention. I presented a way to synthesize and optimize the 
        convenience of Think-Pair-Share (TPS) with the high-stakes 
        motivation of student presentations by sending students home to 
        teach a concept, reconstruct a demonstration, or conduct a lab 
        with a sibling, parent, neighbor or other non-physics student.

Teaching Elementary and Middle School Teachers as an adjunct professor 
        for Johns Hopkins. I designed and taught ``Understanding and 
        Teaching Physical Sciences in Middle School, Parts I and II'' 
        and ``Understanding and Teaching Physics in Elementary School'' 
        based on the National Science Education Standards, Benchmarks 
        and Project 2061. The courses prepared elementary and middle 
        school teachers to cognitively engage their students with 
        science concepts and processes through age-appropriate, 
        interactive, authentic activities and laboratory experiences. I 
        also co-taught two graduate seminar courses, ``Action Research 
        for School Improvement'' and ``Teacher Leadership.'' These 
        courses led teachers to reflect strategically on their practice 
        through action research that reshaped and refined their 
        instruction.

Mentoring new teachers, developing curriculum, and facilitating 
        professional networking and growth as Co-chair of the Baltimore 
        County Physics Study Committee. In addition to selecting 
        textbooks, writing curriculum, and organizing the Physics 
        Olympics, I formally and informally mentor new physics 
        teachers. I equip and encourage them, monitor their progress 
        and help them strengthen their practice.

Initiating, nurturing and expanding the Advanced Placement Science 
        program at Perry Hall High School. During my first year at 
        Perry Hall, I petitioned my administration to let me to start 
        an AP Physics program. We had no AP science courses at the 
        time. We now run three sections of AP physics. This success 
        encouraged our department to offer courses in AP Biology and AP 
        Chemistry as well.

Leading professional development within Baltimore County Public 
        Schools. I regularly present workshops on the 5-E Lesson Plan, 
        physics demonstrations and mini-labs, the High School 
        Improvement Program, the Science Core Learning Goals, GT 
        Physics, Final Examinations, technology, and more. I also 
        developed county-wide final examinations and curriculum to set 
        achievement standards and improve assessment.

Frequent informal science lessons to neighborhood children and adults, 
        judging private and public school science fairs, presenting 
        science activities for Cub Scouts. I serve as an informal 
        science education facilitator in my community. At neighborhood 
        Halloween parties I have dressed as Bill Nye, distributed 
        diffraction grating glasses and advised parents about science 
        education. I initiate informal science experiments and 
        conversations with children at community events and in my 
        neighborhood. I volunteer to judge science fairs and I spend 
        time with each student discussing inquiry and encouraging his 
        or her interest in science. I seize every opportunity to share 
        the rich, fulfilling, exciting experience of science with 
        children and adults whose passion for science may not yet have 
        been set aflame.

Publication of ``Applying Newton's Laws with the CBL'' in 
        Eightysomething! My article inspired teachers to catch the 
        vision of teaching graphical functions as real relationships 
        that can be used to solve authentic problems. Physics and 
        mathematics are not pure abstractions, but are pictures of 
        concrete reality and are tools for understanding the universe 
        through inquiry.

Training science and math teachers to use technology as part of a math-
        science technology team. With a team of math and science 
        teachers, I developed probe-ware workshops, trained and 
        equipped teachers, and catalyzed implementation of probe-ware 
        and graphing calculators into their curriculum.

Integration of the Science and Technology programs at Perry Hall High 
        School. I formed and nurtured relationships with our technology 
        teachers and worked with our administration to establish formal 
        and informal sci-tech connections and take advantage of the 
        powerful synergy between our programs.

E. Awards, Grants, Professional Organizations

Presidential Award for Excellence in Mathematics and Science Teaching, 
        2003

Radioshack National Teacher Award, 2004

Maryland Association of Science Teachers Award for Excellence in 
        Science Education, 2002

National Board for Professional Teaching Standards, Adolescence and 
        Young Adulthood Science Certification, 2001

Outstanding Teacher Award, Perry Hall High School National Honor 
        Society, 1999

Mentoring to Master Technology Integration Project Grant, Towson 
        University, 2002

Eisenhower Professional Development Grant, 1996

Maryland Equipment Incentive Fund Grant, 1995

Baltimore County Physics Study Committee Co-chair

Maryland Association of Science Teachers

American Association of Physics Teachers

University of Maryland Baltimore County Physics Advisory Board

F. A letter from my principal:

Dear Radioshack National Teacher Awards,                  November 4, 
2003

    Jon came to Perry Hall with a Chemical Engineering degree, four 
years of engineering experience and a Master's degree in teaching. 
Jon's goal, from childhood, has been to excel in teaching. He wanted to 
bring more than an academic background into his classroom, so he 
deliberately chose a career path that led through the rigors of 
engineering. Our students benefit from his experience, perspective, and 
insights into scientific and engineering applications.
    Students not only enjoy Jon's classes; they learn in a way that 
equips them to pursue science independently, without relying on someone 
else to teach them. Jon's students enjoy using a myriad of high and low 
technology in their investigations because he believes that students 
can learn more from 10 minutes of authentic investigation than from 90 
minutes of lecture. Jon's curriculum is well-planned and executed, but 
is constantly being modified and shaped by his reflections on how 
students interact with his teaching. He not only acts purposefully in 
the classroom, but he is insightfully perceptive of how students are 
responding.
    Jon is an active member of the science-learning community. He 
actively draws on and engages in educational research and scholarship 
to improve his practice as well as to develop and deliver professional 
development at the building, local, and state levels. Jon co-chairs the 
County-wide Physics Study Committee, has taught three graduate courses 
on science and two on action research and teacher leadership as an 
adjunct professor for Johns Hopkins, and serves on a number of 
University Advisory Boards. Jon's professionalism, enthusiasm, and 
mentoring activities have won many teachers over to active learning.
    Jon is very connected with the mathematics and technology teachers 
at Perry Hall and throughout the county and state. He has jointly led 
teams of students to technology competitions and has taught connections 
between math and physics at county-wide math workshops. He performed 
research and developed curriculum on artificial intelligence and 
surgical robotics with technology teachers during a National Science 
Foundation (NSF) Summer Research Experience. He and a math colleague 
co-created workshops on technology which they presented to middle and 
high school teachers throughout the county. Most of all, Jon has opened 
and continues to maintain communication and synergy among science, 
mathematics and technology programs.
    Jon enthusiastically pursues excellence in teaching, harmonizing 
successful teaching practices with his personality, talents, and 
students through perpetual reflection. He initiated the Advanced 
Placement Science Program at Perry Hall High School and has inspired 
students to pursue the highest goals in science. Jon nurtured the 
program from zero to five AP classes in five years. He has earned our 
National Honor Society's Best Teacher Award, National Board 
Certification and the Maryland Association of Science Teachers 
Excellence in Science Education Award. Jon is currently one of three 
Maryland finalists for this year's NSF Presidential Award for 
Excellence in Mathematics and Science Teaching.

G. A letter from one of my students

    Mr. Roland was my teacher last year in Standard Physics and is now 
my AP Physics teacher. He gave me the confidence that I could do AP 
Physics and made Physics so much fun and so interesting that I wanted 
to take AP. In Physics, I began to care why a wet cloth looks dark 
(even though water is clear) and why bathroom tile feels so much colder 
than the fuzzy bath mat (even though they are the same temperature).
    Mr. Roland always says that it's not what he does, but what we do 
that matters. That's why he often makes us re-teach the things we've 
learned in class. Sometimes we have to teach someone at home or in the 
neighborhood as our homework assignment. It's so exciting to share with 
someone else how physics really matters in their lives and to see them 
get it. Mr. Roland says, ``If you can't teach it to someone else, you 
probably don't understand it. If you want to really learn something, 
try explaining it to someone else.''
    In class, we always feel accountable for our learning. We have to 
present our results to the class for peer review, just like real 
research scientists have to. Mr. Roland lets us make up our own 
investigations and carry them out. He is teaching us how to formulate 
questions, how to discover our assumptions and preconceived notions, 
how to follow the rules of evidence, and how to ``think outside the 
box.'' From my research experience in Mr. Roland's class, I know better 
than to depend on ``what the book says'' or ``what I heard on TV.'' 
Science is all about sharing and challenging each other's ideas, and I 
have as much right to talk to the universe as any Nobel Prize winner.
    If all the coaches at my school worked like Mr. Roland, we would be 
State Champions in every sport! He gets so much out of us, more than we 
even thought possible. We work like a team, and he's taught us how to 
encourage each other and let each other make mistakes without being 
laughed at. In fact, we learn so much from our mistakes that it seems 
like we've scored a big win on each one!
    We all love Mr. Roland's classroom. It is just packed with 
technology, and he makes sure we get to use all his stuff as much as 
possible. We use batteries and light bulbs, an audio-generator and an 
oscilloscope, probeware, computers, and an old video camera Mr. Roland 
lets us use to present our results on the many old monitors he has 
wired all over the classroom. It makes us feel like we're presenting 
papers at a major conference. Maybe some of us will, some day. I would 
not be surprised.
    Mr. Roland's excitement about science is contagious. He is 
energetic and enthusiastic. He has so much confidence in us and sets 
very high standards, but always encourages us if we fall short. We have 
done more than we ever dreamed we could because he believes in us. He 
loves what he does and he does it very well.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much, Mr. Roland. Next 
up, Ms. McGee.

    STATEMENT OF MS. GAIL BROMILEY-MCGEE, TEACHER, CARNEGIE 
              VANGUARD HIGH SCHOOL, HOUSTON, TEXAS

    Ms. McGee. Okay. That was cruel and unusual punishment to 
ask me to go next after that. I asked Kara to put me first, but 
I think my testimony is maybe a little bit more traditional, 
but I think that we might share the same views, and you will 
see some of the same ideas in some of my suggestions as well.
    I would like to thank the Science Committee for giving me 
this opportunity to testify. It has been a tremendous honor 
just to be chosen as the Presidential Award for Excellence in 
Math and Science Teaching, but it is especially highlighted by 
this experience for me.
    I am a biology teacher at Carnegie Vanguard High School, 
which is in the Houston Independent School District. We are a 
very small school. We have about 220 students from grades 9 to 
12, and all of our students have been identified gifted and 
talented. I think Carnegie Vanguard really represents 
everything that is good about public education.
    We know that students learn in small communities where they 
have a sense of ownership in their education. My students know 
and interact with each other on a daily basis. Their voices are 
heard and their suggestions are incorporated, giving them 
control in their education. Our administration gives teachers 
the freedom and the resources to utilize creative approaches in 
teaching, and my principal firmly believes in the power of 
professional development and uses her limited resources to 
ensure that we have access to professional organizations and 
conferences and training.
    To me, the hallmark of a good science teacher is one who 
inspires the intellectual curiosity and growth in her students. 
The most basic definition of science is a process of inquiry, 
and there is that word again. If we want our students to learn 
science, instead of simply regurgitating facts, we must guide 
them through the process of approaching situations 
scientifically. In order to do so, a teacher must tie concepts 
into the existing knowledge of the students and challenge them 
to develop a better working understanding of the concepts. 
Students should be empowered to ask questions and develop the 
skills to answer those questions independently, although I 
still want to figure out that one about the fuzzy rug.
    As much as I would like for all my students to be doctors 
or scientists, realistically, for most of my students, their 
science education ends with me. Yet, the challenges and 
decisions that they will face in their lives will require that 
they have a working knowledge of the world around them. They 
will all become voters and consumers, and many of them will 
become parents. In each of these roles, they are empowered with 
a working education of science.
    One of the biggest issues that I see facing public 
education today is teacher training, recruitment and retention. 
If we are truly serious about the world of education in the 
life of a student, then we should do all that we can to ensure 
that the teachers are well-educated, motivated, and 
compensated. The teaching profession faces many stigmas. 
Comments like ``those who can do and those who can't teach'' 
are all too familiar. Many people feel like teaching is a noble 
profession because there is little compensation and much 
consternation. While that may be true in some schools, my 
district has tried very hard, and succeeded, in changing the 
perception of teaching. I personally feel like Texas teachers 
are very well compensated, and the Houston Independent School 
District has made teacher salaries a major priority. When you 
take into account our holidays and summers, our salaries are 
very competitive. Our retirement package is one of the best. 
And the working environment has changed very dramatically, even 
in just the 10 years that I have been teaching.
    Unfortunately, not enough people know about that side of 
education, and this is where effective teacher recruitment 
comes into play. Too few students even consider teaching as a 
profession. As they learn about the benefits of the profession 
and the personal reward of working with students, it may become 
a viable option for motivated, intelligent people. But 
recruitment is just the first step to increasing the quality of 
our teacher workforce.
    Just like every other profession, success requires an 
understanding of the process and the concepts. An understanding 
of one cannot short-change the other. We need to ensure that 
our system of teacher preparation tackles both aspects required 
for effective teaching: mastery of the content and strategies 
for management in the classroom. Individuals from industry 
bring tremendous experience and expertise, especially in the 
field of science, but all too often, they are not equipped with 
the management skills that they need to succeed in the 
classroom. By not giving these exceptional professional the 
tools that they need, we short-change the entire education 
system. Likewise, it is critical that teachers, especially 
secondary teachers, have adequate training in their subject 
area. Mastering the classroom management aspect of the job is 
only effective when the information being conveyed is accurate 
and current.
    What role can the Federal Government play in improving math 
and science teaching? I think the Federal Government could 
serve as a repository for successful teaching approaches, 
activities, and methodologies. As a new teacher, I thought that 
all of the insight and creativity to make teaching meaningful 
and effective had to come from me. Little did I realize that 
there was no need to reinvent the wheel. Seasoned veterans in 
the field have developed activities and approaches that were 
highly successful. It was just a matter of finding them and 
incorporating them. Perhaps one of the most powerful things 
that should be done to improve the teaching profession is to 
cultivate a network of teachers to share ideas and insights and 
activities.
    We live in an era of tremendous opportunity for sharing 
ideas. The Internet can serve as a powerful tool in making this 
happen, and the Federal Government could spearhead a commanding 
web site dedicated to the collaboration of teachers. 
Organizations like Access Excellence, run by the National 
Health Museum, attempt to expand this concept to the national 
level. Support from the Federal Government could make this a 
very powerful resource for all teachers.
    I think we also need a system of accountability for 
teachers, much like we use for our students. Our current system 
of evaluation breeds mediocrity. As long as teachers meet 
minimum evaluation standards, their job is secure. Teachers 
need both positive and negative consequences for their actions. 
Teachers who surpass the minimum requirements should be 
rewarded. And likewise, teachers who fail to do their job 
should be removed. It is unfair to base a teacher's ability 
solely on their students' test scores and attendance. Even the 
best teachers are limited by the ability of their students. The 
system of teacher evaluation needs to be revamped to include 
measures of content knowledge, perhaps even incorporating a 
testing system for teachers in their field of expertise. 
Especially in science, where concepts are constantly being 
updated and refined, a current understanding is critical to 
being an effective teacher. I think teachers should have 
increased requirements for professional development, and should 
be required to participate in professional organizations in 
their content area.
    Students should also be given a voice in a teacher's 
performance. While a teacher's performance should not be 
relegated to a personality contest, students are the ultimate 
evaluators of a teacher's ability. How can we expect our 
students to succeed in education if we do not offer them 
successful teachers? If our expectations of teachers are 
raised, so is their performance, which ultimately translates 
into better-educated students, our ultimate goal.
    Unfortunately, at least in my experience, Federal 
Government education programs are at the end of a long list of 
voices seeking to be heard. As teachers, we face requirements 
and procedures at the district level first and foremost. There 
is a system of consequences for not participating in the 
district-mandated curriculum and guidelines. Because each 
district varies widely in its interpretation of curriculum, the 
end result is inconsistency in student experience from one 
district to the next.
    Next on the list are our state requirements. Texas has made 
national headlines with our Minimum Skills Testing Program. 
While our Texas Assessment of Knowledge and Skills testing 
program has faced mixed reviews, I am an advocate of testing 
because it causes students to be accountable for their 
education. While our testing system is not perfect, it is the 
first step in holding students and teachers responsible for 
their science education. With these pressing requirements, each 
with a built-in level of accountability, few teachers have the 
luxury of participating in federal programs.
    I am a major advocate of the partnerships in education and 
the National Math and Science Partnership Program seems to 
promote excellent opportunities for affiliations between 
secondary and higher education. Collaboration needs to work in 
two directions: horizontally between teachers of the same 
discipline, and vertically between educators who teach our 
students before us and the professors who will face our 
students after us.
    I am fortunate enough to participate in a program called 
the GK-12 Program through Baylor Medical School in Houston. 
This is a National Science Foundation funded program that 
partners a high school science educator with a working 
scientist. We work together throughout the year to develop 
integrated curriculums and activities for my students.
    Last semester, my Advanced Placement biology class teamed 
up with the Advanced Placement psychology class, and we 
developed a unit on the nervous system. Through the GK-12 
program, we were able to work in conjunction with an actual 
neuroscientist, Dr. Daniel Plas. He spent two weeks with me 
teaching my class. The students participated in brain and eye 
dissections, they learned the physiological effects of the 
brain and addiction, and they tested their sensory systems, all 
with the support and guidance of a true expert in the field.
    Aside from the level of expertise that Dan brought to the 
nervous system unit, and other informal experiences that we 
shared throughout the year, Dan served as a model for students 
interested in science. He is a tangible example of what a 
career in science can look like, and he has been able to share 
his personal roadmap of becoming a scientist with my students.
    As exciting as the National Math and Science Partnership 
sounds, it involves a level of initiative on my end that is--I 
am very hard pressed to meet at the end of the day. I certainly 
hope that part of the Federal Government's approach to 
supporting science education is the continued funding of 
excellent local and well-organized programs like the GK-12 
program.
    I think the Federal Government is on to a good thing 
offering educators a consistent, well thought out overview for 
success in science education. The National Science Education 
Standards are a perfect example of what the Federal Government 
can contribute to science education. They succinctly outline 
the concepts that all our students should understand in 
science. They are a solution for the lack of consistency we 
face at the district and state level. By incorporating a 
process of collaboration between science educators, creating a 
repository of effective science techniques, and including a set 
of professional standards in addition to the content standards, 
the National Science Education Standards could serve as a 
foundation for effective science teaching. Coupled with the 
continued financial support of the federally funded National 
Science Foundation programs, the Federal Government sets high 
standards for science educators.
    I commend the Committee on Science of the U.S. House of 
Representatives for convening this hearing, and for giving 
science and math teachers an opportunity to voice our opinion 
and our suggestions, and for having the foresight to tackle the 
reform issues in science education. Thank you.
    [The prepared statement of Ms. McGee follows:]

               Prepared Statement of Gail Bromiley-McGee

    Thank you to the Science Committee of the U.S. House of 
Representatives for giving me an opportunity to testify. It is a 
tremendous honor to be chosen as the recipient of the Presidential 
Award for Excellence in Mathematics and Science Teaching, and it is 
especially highlighted by this experience.
    My name is Gail McGee and I am a biology teacher at Carnegie 
Vanguard High School, in Houston, Texas. Carnegie Vanguard is the 
gifted and talented high school, in the Houston Independent School 
District. We are a small school, with only 220 students, grade 9 to 12. 
All of our students have been identified gifted and talented. Carnegie 
Vanguard represents everything that is right about public education. We 
know that students learn best in small communities, where they have a 
sense of ownership in their education. Our students know and interact 
with each other on a daily basis. Their voices are heard and their 
suggestions are incorporated, giving them control in their education. 
Our administration gives teachers the freedom and the resources to 
utilize creative approaches in teaching. My principal firmly believes 
in the power of professional development and uses her limited resources 
to insure we have access to professional organizations, conferences, 
and training.
    To me, the hallmark of a good science teacher is one who inspires 
the intellectual growth and curiosity in her students. The most basic 
definition of science is a process of inquiry. If we want our students 
to learn science, instead of simply regurgitating facts, we must guide 
them through the process of approaching situations scientifically. In 
order to do so, a teacher must tie concepts into the existing knowledge 
of the students and challenge them to develop a working understanding 
of the concept. Students should be empowered to ask questions and 
develop the skills to answer those questions independently. As much as 
I would like for all my students to be doctors or scientists, 
realistically for most of my students their science education ends with 
me. Yet, the challenges and decisions that they will face in their 
lives will require that they have a working knowledge of the world 
around them. They will all become voters and consumers and many will 
become parents. In each of these roles, they are empowered with a 
working education of science.
    In my teaching, I try very hard to make things real, concrete and 
understandable. Given the abstract nature of many biological concepts, 
achieving my goals can be difficult. By using analogies, tied to 
student experiences, I hope to make difficult concepts understandable. 
The physiological process of learning actually requires the development 
of connections between neurons. New concepts and ideas are physically 
linked with existing ones. Why should teaching be any different? Start 
with a concept students know and understand and make connections with 
new and abstract ideas. Learning itself is the basis of our most 
effective methods in teaching.
    Another characteristic that I think is critical in a good teacher 
is acknowledging that students learn at different rates and using 
different approaches. I try very bard to take this into account in my 
classroom, by using both a multisensory approach and a 
multidisciplinary approach. Teachers must take into account that there 
are many approaches for learning, and teaching should not be limited to 
the traditional methods. I try to offer students opportunities in 
linguistic, logical, mathematical, musical, artistic, and kinesthetic 
learning approaches. Students learn by doing. I try to get my students 
up and moving, asking them to model processes and allowing them to 
interact with one another. I incorporate musical activities in my 
classroom, thanks to Dr. Art, the Singing Scientist, who plays popular 
songs with biology lyrics. The students are given a variety of artistic 
activities including creating pop-up books, brochures, flip books, and 
catalogs.
    Biology is not a vacuum; to the contrary, it coexists in a world 
with many other disciplines. By taking a multidisciplinary approach, I 
am able to focus experiences around major issues, themes, and ideas 
that define both real world application and theoretical modeling within 
and across areas of study. Furthermore, although I teach a science 
course, reading and writing are a major component to the course. My 
students have written research papers that have been graded both in 
English and biology. An understanding of Latin and Greek root terms is 
critical to deciphering the terminology in the field of science. My 
students take a weekly quiz over root terms. When they see a big 
scientific term they do not know, they can break it down into its root 
terms and deduce its meaning. In a field like science, it is essential 
to keep up with the latest information, so I share current journal 
articles and newspaper clippings with my class. Finally, an 
understanding of technology is crucial to our student's future success. 
I try to incorporate technology at every opportunity. Students work 
with CBL's, computer modeling programs and participate in a variety of 
web-based activities. Many times the students are more proficient at 
the technology than I am, but the exposure is critical for the students 
to foster a level of comfort in working with technology they will need 
in their future.
    What role can the Federal Government play in improving math and 
science teaching? I think the Federal Government could serve as a 
repository of successful teaching approaches, activities and 
methodologies. As a new teacher I thought that all of the insight and 
creativity to make teaching meaningful and effective had to come from 
me. Little did I realize that there was no need to reinvent the wheel. 
Seasoned veterans in the field bad developed activities and approaches 
that were highly successful; it was just a matter of finding them and 
incorporating them. Perhaps one of the most powerful things that should 
be done to improve the teaching profession is to cultivate a network of 
teachers to share ideas, insights and activities. We live in an era of 
tremendous opportunity for sharing ideas; the Internet can serve as a 
powerful tool in making this happen and the Federal Government could 
spear bead a commanding website dedicated to the collaboration of 
teachers. Organizations like Access Excellence, run by the National 
Health Museum, attempt to expand this concept to the national level. 
Support from the Federal Government could make this a very powerful 
resource for all teachers.
    One of the biggest issues that I see facing public education today 
is teacher training, recruitment, and retention. If we are truly 
serious about the role of education in the life of a student, then we 
should do all we can to insure their teachers are well educated, 
motivated, and compensated.
    The teaching profession faces many stigmas. Comments like ``those 
who can, do, those who can't, teach'' are all too familiar. Many people 
feel that teaching is a ``noble profession'' because there is little 
compensation and much consternation. While that may be true in some 
schools, every district has tried hard, and succeeded in changing the 
perception of teaching. I personally feel that Texas teachers are very 
well compensated. The Houston Independent School District has made 
teacher salaries a major priority. When you take into account our 
holidays and summers, our salaries are very competitive. Our retirement 
package is one of the best. The working environment has changed 
dramatically, even in the 10 years that I have been teaching.
    Unfortunately, not enough people know about this side of education. 
That is where effective teacher recruitment comes into play. Too few 
students even consider teaching as a profession. As they learn about 
the benefits of the profession, and the personal reward of working with 
children, it may become a viable option for motivated, intelligent 
people. But recruitment is just the first step to increasing the 
quality of our teacher workforce. Just like every other profession, 
success requires an understanding of the process and the concepts. An 
understanding of one cannot shortchange the other. We need to insure 
that our system of teacher preparation tackles both aspects required 
for effective teaching: mastery of the content and strategies for 
managing a classroom. Individuals from industry bring tremendous 
experience and expertise, especially in the flied of science, but all 
too often they are not equipped with the management skills that they 
need to succeed in the classroom. By not giving these exceptional 
professionals the tools they need to succeed, we shortchange the entire 
education system. Likewise, it is critical that teachers, especially 
secondary teachers, have adequate training in their subject area. 
Mastering the classroom management aspect of the job is only effective 
when the information being conveyed is accurate and current.
    Equally important is recognizing that teaching is not static; it is 
a dynamic field where the content knowledge is constantly changing. 
Once teachers have mastered the classroom management component of the 
job, they must continue their professional growth within their content 
area. I would like to see more meaningful professional development 
opportunities offered to all teachers. I have had the luxury of 
participating in several enrichment programs during the summer, 
including an excellent six week science educator program at MD Anderson 
Cancer Center and LIT Health Science Center. During this program we are 
given the latest cutting edge information in science from the people 
who are actually doing the research. Unfortunately, there were only six 
participants in this excellent program, certainly not representative of 
the number of science teachers in our area. Money is always an issue 
with public education, but the additional expenditure on teacher 
training and recruitment is money well spent Professional growth is a 
critical component of success in education, and individuals that take 
it seriously should be rewarded. Again there is a role for the Federal 
Government in making this happen. Your continued support of the 
National Science Foundation, and the programs it funds, make courses 
like this possible.
    I think we need a system of accountability for teachers, much like 
we use for students. Our current system of evaluation breeds 
mediocrity. As long as teachers meet minimum evaluation standards, 
their job is secure. Teachers need both positive and negative 
consequences for their actions. Teachers who surpass these minimum 
requirements should be rewarded and likewise teachers who fail to do 
their job should be removed. It is unfair to base a teacher's ability 
solely on their student's test scores and attendance. Even the best 
teachers are limited by the ability of their students. The system of 
teacher evaluation needs to be revamped to include measures of content 
knowledge, perhaps incorporating a testing system for teachers in their 
field of expertise. Especially in science, where concepts are 
constantly being updated and refined, a current understanding is 
critical to being an effective teacher. I think teachers should have 
increased requirements for professional development and should be 
required to participate in professional organizations in their content 
area. Students should also be given a voice in evaluating teacher 
performance. While a teacher's performance should not be relegated to a 
personality contest, students are the ultimate evaluators of a 
teacher's ability. How can we expect our students to succeed in 
education if we do not offer them successful teachers? If our 
expectations of teachers are raised, so is their performance, which 
ultimately translates into better educated students, our ultimate goal.
    Unfortunately, at least in my experience, Federal Government 
education programs are at the end of a long list of voices seeking to 
be beard. As teachers, we face requirements and procedures at the 
district level, first and foremost. There is a system of consequences 
for not participating in the district mandated curriculum and 
guidelines. Because each district varies widely in its interpretation 
of curriculum, the end result is inconsistency in student experience 
from one district to the next. Next on the list are our state 
requirements. Texas has made national headlines with our state minimum 
skills testing program. While our Texas Assessment of Knowledge and 
Skills testing program has faced mixed reviews, I am an advocate of 
testing because it causes students to be accountable for their 
education. Until this year, in Texas, high school science students have 
not faced any formal assessment in high school. In previous years, 
science testing was limited to the 4th and 8th grades. Under the next 
TAKS system, students are required to pass a l0th and 11th grade 
science skills test to graduate. While our testing system is not 
perfect, it is the first step in holding students and teachers 
responsible for their science education. With these pressing 
requirements, each with a built in level of accountability, few 
teachers have the luxury of participating in the federal programs. I am 
a major advocate of partnerships in education, and the National Math 
and Science Partnership program seems to promote excellent 
opportunities for affiliations between secondary and higher education. 
Collaboration needs to work in two directions: horizontally, between 
teachers of the same discipline and vertically between the educators 
who teach our students have before us and the professors our students 
will face after us. I am fortunate enough to participate in the GK-12 
program at Baylor Medical School. This National Science Foundation 
funded program partners a high school science educator with a working 
scientist. We work together throughout the year developing innovative 
curriculum for my students. Last semester, my Advanced Placement 
biology class teamed up with the Advanced Placement Psychology class to 
learn about the nervous system. Through the GK-12 program we were able 
to work in conjunction with an actual neuroscientist, Dr. Daniel Plas 
who spent two weeks team teaching our class. The students participated 
in brain and eye dissections, learned the physiological effects on the 
brain and tested their sensory systems, all with the support and 
guidance of a true expert in the field. Aside from the level of 
expertise Dan brought to our nervous system unit, and other format 
experiences we have shared throughout the year, Dan serves as a model 
for students interested in science. He is a tangible example of what a 
career in science can look like and he has been able to share his 
personal road map of becoming a scientist with my students. As exciting 
as the National Math and Science Partnership sounds, it involves a 
level of initiative on my end that I am hard pressed to meet at the end 
of the day. I certainly hope that part of the Federal Government's 
approach to supporting science education is the continued funding of 
excellent local, well organized programs like the GK-12 program.
    I think the Federal Government is on to a good thing, offering 
educators a consistent, well thought out, overview for success in 
science education. The National Science Education Standards are a 
perfect example of what the Federal Government can contribute to 
science education. They succinctly outline the concepts that all our 
students should understand in science. They are the solution for lack 
of consistency we face at the district and state level in science 
education. By incorporating a process of collaboration between science 
educators and creating a repository of effective science techniques and 
including a set of professional standards (in addition to the content 
standards), the National Science Education Standards could serve as the 
foundation of effective science teaching. Coupled with the continued 
financial support of the federally funded National Science Foundation 
programs, the Federal Government sets high standards for science 
educators. I commend the Committee on Science of the U.S. House of 
Representatives for convening these hearings, for giving science and 
mathematics teachers an opportunity to voice our opinions and 
suggestions and for having the foresight to tackle the reform of 
science education.

                   Biography for Gail Bromiley-McGee

EDUCATION

Trinity University, San Antonio, TX, 1985-1989, Bachelor of Science in 
        biology; Secondary Teaching Certification in biology

University of Texas at Austin, Austin, TX, 1989-1992, 124 post-graduate 
        hours in biology, zoology and botany

PROFESSIONAL EXPERIENCE

Carnegie Vanguard Nigh School, Houston, TX, August 2003-Present
Biology Teacher

        <bullet>  Teach Advanced Placement Biology and Pre-Advanced 
        Placement Biology to gifted and talented students

        <bullet>  Implementing the latest computer technology for 
        student use

DeBakey High School for Health Professions, Houston, TX, August 1999-
        May 2003
Science Department Chair and Biology Lead Teacher

        <bullet>  Served as Science Department Chair, responsible for 
        coordinating budgets, science fair, vertical alignment

        <bullet>  Elected, by peers, to Shared Decision Making 
        Committee charged with approving major decisions on campus

        <bullet>  Taught Advanced Placement Biology (five classes) and 
        Pre-Advanced Placement Biology (one class)

        <bullet>  Motivated over 50 students each year to take and 
        succeed on the Advanced Placement Exam

        <bullet>  Integrated technology and cutting edge research in 
        teaching methods

        <bullet>  Advisor for National Honor Society

        <bullet>  Founding sponsor for the DeBakey Environmental Club

Houston Independent School District, Houston, TX, October 2002-Present
Test Question and Model Lesson Writer

        <bullet>  Selected to write the district snapshot test 
        questions for TAKS preparation

        <bullet>  Selected to write Model Lessons for Project Clear, 
        Houston Independent School District's biology curriculum

        <bullet>  Trained lead biology teachers from the district on 
        Project Clear Model Lessons

Texas Education Agency Gifted and Talented Performance Standards 
        Discipline Committee
Discipline Committee Member, Austin, TX, January-June 2000

        <bullet>  Developed the specific requirements and assessment of 
        the Texas Distinguished Achievement Program (DAP) original 
        research project measure

        <bullet>  Developing a criterion-referenced performance 
        assessment system to determine Texas students' specific indepth 
        knowledge and skills

        <bullet>  Developed performance standards, criteria for 
        assessment, scoring rubric, assessment tasks and evidence of 
        validity

St. Pius X High School, Houston, TX, August 1996-May 1999
Science Department Chair and Science Teacher

W.T. White High School, Dallas, TX, August 1993-January 1994
Biology Teacher

HONORS AND AWARDS

Presidential Awards for Excellence in Math and Science Teaching (2004). 
        Recognized as the outstanding science teacher from the State of 
        Texas; invited to attend a week of recognition events in 
        Washington, DC, including an award ceremony, a Presidential 
        Citation, meetings with leaders in government and education, 
        sessions to share ideas and teaching experiences, and 
        receptions and banquets to honor recipients.

Carnegie Vanguard High School Teacher of the Year (2003-2004). 
        Recognized as a skilled and dedicated teacher.

Texas Academy of Science Educator of the Year (2004). Recognized by an 
        organization of college and university professors of Texas.

PROFESSIONAL ORGANIZATION MEMBERSHIP

National Association of Biology Teachers

National Science Teachers Association

Texas Association of Biology Teachers

American Zoo and Aquarium Association

PROFESSIONAL ACTIVITIES/RESPONSIBILITIES

Rice University Workshop for High School Teachers of the Gifted and 
        Talented (Summer 2003). Presented multiple sessions on 
        strategies to encourage gifted and talented student success in 
        science classrooms.

National Science Foundation Graduate Teaching in K-12 Education Program 
        (2002 and 2003). Partnered with a Baylor medical student to 
        develop biology curriculum and activities.

Houston Teachers Institute Program Fellow (2001). Wrote curriculum unit 
        ``How Much Science is in Science Fiction?''; one of three units 
        to be published in the 2002 Houston Teacher Institute Program.

Houston Independent School District Project Clear Biology. Coordinator 
        for DeBakey High School for Health Professions and Carnegie 
        Vanguard High School.

Houston Independent School District Mentor Training (18 hours). 
        Supervised DeBakey science teacher.

M.D. Anderson Cancer Center Summer Workshop for Science Educators (140 
        hours, Summer 2001, Summer 2003).

The Human Genome Project Institute from Wright Center at Tufts 
        University (50 hours, Summer 2000).

Rice University Gifted and Talented High School Student Institute (18 
        hours, Summer 2001).

Rice University Advanced Placement Institute (105 hours, Oct.-Feb. 
        2001, Sept. 2000, June 1999).

Supervising Teacher Training. Supervised University of Houston student 
        teacher (Spring 2001).

University of Texas at Brownsville Advanced Placement Institute (June 
        2000).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Chairman Boehlert [continuing]. We might have forgotten the 
date and the directions, it is August 28. The wedding will 
occur--you take 270 North, go on to 80 West. Mr. Cushner, you 
will be next. But, before you start, the Chair will relinquish 
the seat to the distinguished gentleman from Michigan, the 
Chair of the Subcommittee on Research--and I will be back in a 
while--Mr. Smith.

STATEMENT OF MR. JASON CUSHNER, TEACHER, EAGLE ROCK SCHOOL AND 
     PROFESSIONAL DEVELOPMENT CENTER, ESTES PART, COLORADO

    Mr. Cushner. Okay. Thank you very much. It is an honor to 
be here. And Representative Boehlert, not only do you--do we 
want you to do the wedding, but could you do the catering also?
    Okay. So who I am is someone who has made a career out of 
working with students who have found success elusive. My last 
school was a school for students who had dropped out or somehow 
had been unsuccessful in school, and I currently am teaching in 
a public school that is considered low performing with about 3 
percent meeting the standards in math.
    I teach math through art, through rock climbing, through 
building a boat, through--we built the low-income health 
clinic, and through different ways that will engage these 
students. And I have also mentored teachers in how to work with 
students who have found success elusive in math.
    What I have found works is, one, engaging the students in 
using math as a lens to understand the world and things that 
interest them. So when I did the math around rock climbing, we 
studied math, physics, geology, environmental science, and used 
math and science as a lens to understand the world around them, 
so they were brought into learning whatever we were doing, and 
we got to go rock climbing in the afternoons.
    The other thing is, like, when math is a discreet series of 
concepts, it doesn't make sense and it is not interesting. When 
they are complex problems, it is interesting and it is 
challenging, the students find it difficult and perceive 
themselves as they can't solve these problems. But, when given 
the support to solve these complex open-ended problems, it 
transforms the way they view their relationship to math, often 
the way they view their relationship to academics, and often 
the way they view themselves, and can really cause a 
transformation of person.
    The class that I taught that I videotaped for this award 
was called ``Is Democracy Fair?'', where we used math as a lens 
to look at different ways of representing the people to decide 
which is best, and which is a fair way to represent the people, 
and it is a huge and difficult question. But the students 
grapple with it and then found math as an important tool to 
understand, like, how do we represent our people.
    So some of the things that the Federal Government has done 
that have made a huge difference in math education: one is when 
the National Standards of Math came out from NCTM in 1989, they 
funded research projects to develop curriculum along with those 
standards. Those curriculums are wonderful. One of them, 
Interactive Mathematics Program, or IMP, I piloted and helped 
revise and did the professional development. And that gave me--
like, it was a teacher-developed curriculum and teacher-
developed workshop. They really made a profound difference in 
how my colleagues teach math and develop students in inquiry-
based learning.
    Supporting efforts like that has made a huge difference in 
math education for those people willing to take that on. And 
even if we don't teach that curriculum now, but I did a class 
where we built a boat and used math as different parts of doing 
that. But doing those workshops funded by NSF helped me develop 
ways to use in these other classes that I teach, like building 
a boat: develop scale, surface area, lots of the tools that we 
needed for that project.
    One of the other questions is ``what is impeding math and 
science education, both for teachers and students?'' I think 
some of the things impeding students are there--they have a--
there is a stigma associated with math that is socially 
acceptable. It is not very socially acceptable to say I can't 
read. It is a common conversation to say I can't do math or I 
hate math. And then many of the things, like, they have a 
culture where math isn't important around them and in their 
families, in--with some of the students that I work with. And 
then, also, they have certain unmet physical and emotional 
needs.
    And for the teachers, I think sometimes they come from a 
paradigm of teaching math as traditional and not based on 
research and what works. And also, I feel like they are 
sometimes so burdened by this list of content they need to 
teach, they don't have time to teach--or develop the projects 
that really engage students and develop their thinking skills 
to go along with the content that is really valued by 
standards.
    And also, I do want to say I think it is crucial that 
teachers and schools are held accountable to performing well. I 
have found with some of the parts of No Child Left Behind, it 
has been more restrictive than helpful in doing what we have 
been trying to do. I know, for me, at our school--like, my 
school, people are working very hard to work their students. We 
have made huge gains in literacy. But we haven't been able to 
find math teachers, so I appreciate all the efforts you guys 
are doing to bring more teachers into math and science.
    But right now, I have been told I need to stop teaching the 
way that I do that got me this award to teach a Princeton 
Review curriculum which we paid handsomely for, I am sure, to 
get our students ready for the test. My district says there is 
not--it is not only my district that does it, but they feel 
like their hands are tied because they need to do well on a 
test to keep the certain amount of federal funding, and they 
want to do well, so I feel like we need to find a better way of 
dealing with some of these issues.
    So what can be done? I feel like the key thing that can be 
done to improve teaching and education for students is really 
getting teachers working in small grass root groups to change 
teaching of our students, because I feel like when we work as 
teachers and researchers, it is much more powerful than when 
the research is handed down to us. So what--thank you. So if 
you guys could somehow fund small collaborative groups of 
teachers to improve our practice, like us working together--
like, the needs of my students are different than those in 
Texas, than those in Maryland, and those in Alaska, and we 
could work to really deal with the specific needs and bring out 
the brilliance that our students have.
    Also, I think that it would be a much stronger form of 
accountability for teachers because tests are something in the 
distance. I find tests sometimes hinder teachers work doing 
innovative things, and the people who are great teachers, 
because there are some of those, it doesn't make a difference, 
but if we were working together and sitting in each other's 
classrooms--it is pretty intimidating to have another teacher 
in your classroom, but that really causes you to do your best 
and not just talk the talk but really walk the walk. So if we 
could have teachers work collaboratively and sit in each 
other's classrooms to help improve practice, I think that would 
be the greatest thing we could do for education.
    And I feel like just like you guys funded the curriculums 
along with the standards, that was really--that math and 
science really pioneered that movement in education. I feel 
like math and science could once again pioneer educational 
practice by building these strong collaborative groups among 
teachers as accountability and professional development.
    Thank you guys for having us here, and thanks for listening 
to teachers. It makes--it feels really good.
    [The prepared statement of Mr. Cushner follows:]

                  Prepared Statement of Jason Cushner

    Thank you for honoring me with the opportunity to speak with you 
today.
    I have made a career out of teaching math to those who believe they 
can't do math. I have worked at low-income public schools, as well as a 
tuition-free private school for students who were previously 
unsuccessful in school. I have taught math through creating art, 
building a health clinic, climbing rocks, studying genetics, and 
investigating democracy. I have not only taught students, but I have 
also trained new teachers in how to teach math effectively, creatively 
and experientially.
    Effective math education empowers students and teachers with 
knowledge, critical thinking skills, creativity, and passion for the 
complex problems encountered in real life. I've found that what works 
for struggling students is using math as a lens for understanding 
things that interest them. For example, I taught a class called Rockin' 
Road that centered around rock climbing. Through this ten-week field 
course, students learned math, geology, physics, environmental science, 
and literature as we traveled through Colorado, Utah, and Wyoming. 
Another critical piece to what works for students learning math is to 
give them complex, open-ended problems and the support to solve them. 
In my classroom, I never give answers. The students propose solutions 
and critique each other until they come to consensus in the same way 
that real mathematician and scientists operate. In the class which I 
videotaped for this award, Is Democracy Fair?, the students used math 
to choose which government systems are most representative of the 
people.
    The Federal Government's primary role in improving math education 
should be to provide structures that support math teachers in 
regulating and developing their own field, education. After the 
National Council of Teachers of Mathematics wrote their National Math 
Standards in 1990, NSF funded the development of curricula in line with 
those standards. The Interactive Mathematics Program (IMP) was one such 
curriculum in which I was trained and that I piloted in my classroom. 
It is an exceptional curriculum for developing problem-solving skills 
and imparting content knowledge, and has been a key resource in the 
various innovative courses I have taught. It gave me the tools to 
develop curriculum to fit into courses such as Building a Boat in which 
students designed and constructed a wooded canoe, learning scale, 
surface area and volume, and dimensional analysis. IMP's success is 
attributable to two factors: first, math teachers themselves developed 
it; and second, IMP incorporates teacher-designed professional 
development to train math instructors in the curriculum. Teachers have 
described the IMP training and curriculum as the source of their 
classroom's transformation from a teacher-centered lecture to a 
student-centered problem-solving environment. I want to thank the NSF 
for this program and strongly encourage the continuance of such 
initiatives.
    Despite such successful federal initiatives as IMP, there are still 
many limits to student and teacher achievement in math. Students are 
limited by their own fears and insecurities about math; by their unmet 
emotional and physical needs; and by classroom social environments that 
are hostile to learning and achieving in school. Teachers are limited 
by having to deliver courses loaded with so much content that not 
enough time remains for conceptual and thinking skills, as well as by 
having to participate in professional development that is often 
inapplicable to their daily classroom experience. Both teachers and 
students may try to create a learning environment in facilities that 
are so rundown and uncomfortable that they may be unsafe. In addition, 
teachers struggle to be voices speaking a different message in a 
culture that regards science and math as a collection of discrete facts 
rather than a method of investigating and representing the world.
    Another limit to student and teacher achievement is recent 
legislation and regulations which place too much emphasis on testing 
and not enough on learning. There certainly needs to be accountability 
for federal funds spent on education. Overall however, the No Child 
Left Behind Act is hindering education more than it is helping it. I 
personally have had to curtail the type of teaching that earned me 
recognition as a finalist for the Presidential Award. When I was in an 
independent school free from federal legislation, my courses were 
innovative and my students soared. Now, I am constrained by testing and 
have had to spend the last four weeks in my classroom teaching a test 
preparation curriculum designed by the Princeton Review. They were paid 
handsomely by my school district, an urban school district without 
enough money for textbooks. We nonetheless feel forced to allocated 
resources to test prep rather than instruction because the tests are 
high stakes for the school district retaining control over innovative 
programs in which we believe. There are far better ways to provide 
exceptional education for all and to create a professional environment 
in which teachers are held to high expectations for classroom 
instruction and development of practice.
    So what can the Federal Government do? Attract and retain good math 
teachers and then support us in doing our jobs. Contrary to popular 
belief, salary is not the primary factor keeping good math teachers 
away from schools. Rather, it is the lack of professional stimulation. 
I personally have spent so much time participating in ``professional 
development'' workshops where outsiders to my field come to tell me 
what to do. I am happy to learn from others, but I often find that 
these ``experts'' are unable to give me information that I can use in 
my classroom. A far more effective use of my time would be to work with 
my colleagues to develop our practice in such a way as to respond to 
the real needs of our students.
    My recommendation of the single most important step the Federal 
Government should take to improve math and science education is to 
sponsor small teacher groups working together to improve practice. In 
other words, support structures in which teachers work together to 
develop and refine their curriculum and instruction. This action would 
accomplish the goal of making the profession more fulfilling to 
teachers, as well as providing the most effective forum for critique 
and evolution of practice to benefit students. In addition, such 
programs would hold teachers accountable for doing high quality work, 
since teachers would consistently be observed and evaluated by their 
own colleagues. Supporting such programs would address the issues I 
previously mentioned as limiting students and teachers, because 
teachers would choose to address the issues most impacting their own 
classrooms. Every classroom across the country has different needs and 
issues to address.
    One such model initiative is presently being sponsored by the 
Colorado Council of Teachers of Mathematics, and is based on research 
from the Third International Math and Science Study (the TIMS Study). 
In this curriculum development model, which is the established norm in 
Japan, teachers work in small groups to develop curriculum and 
practice. Small groups of teachers convene to define a particular issue 
or problem they share in instruction (for example, ensuring that 
students understand the applications of logarithms). Then they work 
together to design lessons addressing that issue. Finally, all the 
teachers in the group pilot the new unit in their own classrooms, 
periodically observing each other's practice to critique the unit and 
refine it.
    This ``teachers as researchers'' model allows teachers to address 
the issues that are truly present in their classrooms and curricula. It 
also keeps teachers fresh and creative, giving them regular opportunity 
to practice the thinking and problem-solving skills necessary for good 
math and good teaching. Moreover this model incorporates the type of 
pre-service and in-service training I have found to be most helpful as 
a teacher: getting plenty of classroom time with plenty of observation 
and feedback. This also holds teachers accountable to their peers for 
delivering quality learning in their classrooms. This authentic 
accountability by teachers for teachers will allow teachers and schools 
to improve teaching and learning, not just how they talk about teaching 
and learning. Finally, this model complements the findings of a TIMSS 
follow-up study by James Hiebert that showed that instructional 
technique, especially the kinds of questions teachers ask students, is 
more important than the actual curricula taught.
    In order for math education to work for all students in our county, 
a major shift across the entire profession is necessary. Such cultural 
change requires evaluation and improvement at the level of daily 
practice. To this end, the Federal Government should support structures 
that encourage evolution of practice.
    Thank you again for giving me this opportunity to speak with you 
and for affirming the invaluable perspective of classroom teachers in 
this discussion. I look forward to the future growth that will come 
from our continued collaboration.

                      Biography for Jason Cushner

    Jason's teaching career was not predictable. He did not excel in 
high school. In college, he found a love for math and majored in it. 
When he graduated in 1992, there were few jobs available, so he ended 
up tutoring math, traveling through Europe, and teaching English in 
Turkey, where he discovered his love of teaching. On his return to the 
States, he enrolled in Colorado College's Teaching Certification and 
Master's Program and taught in public schools in Colorado Springs. He 
then got a position at Eagle Rock School and Professional Development 
Center in Estes Park, Colorado. Eagle Rock is a tuition-free, 
residential school for students who have been previously unsuccessful 
in school. During his six years at Eagle Rock, Jason taught many 
innovative courses, including Building a Boat, Physics and Calculus, 
and Rockin' Road, a summer field-course in which students traveled 
throughout Colorado, Utah, and Wyoming studying math, geology, physics, 
environmental science, and literature around the theme of rock 
climbing. He was also the dorm parent for fourteen teenagers in one of 
the student houses. This past year, Jason moved to Providence, Rhode 
Island and has been teaching math at Feinstein High School, one of 
Providence's small public high schools.
    Throughout his teaching career, Jason has focused on how to make 
math education work for all students. To this end, he has published 
numerous articles, including an article for the Colorado Council of 
Teachers of Mathematics (CCTM) newsletter on how to use portfolios to 
assess student learning, and an article for Mathematics Teacher on how 
to design and implement a service-based math curriculum. Other 
publications include curriculum books for Rockin' Road and Community 
Problem Solving. He has presented at several conferences around the 
country, including CCTM's Annual Conference, the National Service 
Learning Conference, and the Association of Experiential Education 
International Conference. He has also served as a representative on the 
CCTM board and was honored as Outstanding Math Teacher in Colorado in 
2001. He enjoys trail running and rock climbing, and is engaged to be 
married this summer to Sarah Bertucci, a science teacher whom he met 
when they taught Physics and Calculus together.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Smith [presiding]. Mr. Cushner, thank you very much. 
And as we continue our Math and Science Partnership Program--
and I am hopeful that that will stay in the National Science 
Foundation rather than being moved someplace else--I think it 
is important that part of that goal be to look at what 
successful teachers are doing and how they are doing it.
    Ms. Wendy Ehnert is a teacher at Austin Lathrop High School 
in Fairbanks, Alaska. Ms. Ehnert.

STATEMENT OF MS. WENDY EHNERT, TEACHER, AUSTIN E. LATHROP HIGH 
                   SCHOOL, FAIRBANKS, ALASKA

    Ms. Ehnert. Thank you very much. Mr. Smith, Ranking Member 
Gordon, and Committee Members, well, I bring you greetings from 
Fairbanks, Alaska, land of dog mushing, Northern Lights, and 
great schools. Thank you for your invitation to speak here for 
a few minutes.
    I am a science teacher at Lathrop High School in Fairbanks, 
Alaska, and in my 16 years of teaching, I have had the 
opportunity to teach students from Minnesota, from the Czech 
Republic, and from Alaska, both rural and what we call urban in 
Alaska. And although the backgrounds of these students have 
varied, the qualities of teaching have not.
    There are many different styles of teaching, and trends 
come and go, as we all know, in the field of education, but I 
think one of the main qualities of good teaching is the ability 
to excite the student about the topics that they are learning. 
To me, this means that a teacher has to maintain his or her own 
level of excitement. And if you think back to the days of your 
learning in the classroom, think back to the teachers that made 
a big influence on your learning, and they were the ones who 
loved their subject matter and were able to convey that 
excitement to those of you sitting on the other side of the 
desk.
    I want to focus my remarks this morning on how teachers can 
maintain that level of excitement. And for science teachers, 
this can occur through, I think, four different venues: 
opportunities and research for the teacher, for their students, 
opportunities for professional development and advancement, and 
recognition of good work. And I think the Federal Government, 
through funding and leadership, can really be an important part 
of this mission.
    One of the great things about teaching science is there are 
so many things to learn. I have been fortunate to be able to 
participate in many federally funded programs that have allowed 
me to broaden my science content knowledge and research 
background. I received funding through NIH and NSF to do 
molecular biology research with minority Alaska students and 
teachers, recover and analyze dinosaur bones, learn computer 
modeling software, and collect and analyze algae samples from a 
Coast Guard ice cutter near the Antarctic continent. I am able 
to share these experiences with my classes, and this not only 
serves to personalize the topics, but also to allow the 
students to see the amazing opportunities in research.
    My students have been lured into research themselves by 
opportunities through the National Junior Science and 
Humanities Symposium, which is co-funded by the Army, Navy and 
Air Force; and also the International--I am sorry--the Intel 
International Science Fair, which is partially sponsored by the 
U.S. EPA. Many of the mentors with whom my students have worked 
over the years, and this is principally from the University of 
Alaska Fairbanks, have had funding from NSF and NIH, and have 
generously shared their money and expertise with my budding 
scientists.
    Not only do the students get excited about what they are 
doing, but I also have a chance to learn about research in that 
field of study. Opportunities such as this for my students are 
very satisfying for me as I watch them become scientists as 
they do the research. These opportunities in research often 
sway students of many talents into choosing science as a 
career.
    I want to tell you about one of my former students, Sarah, 
who was a very talented writer. She was a good musician. She 
was a great public speaker. And she was an overall good 
student. As a requirement of my biology and chemistry classes, 
she had to do an independent research project, and she ended up 
taking those projects to the State Science Fair. She was 
awarded a first and a second place in the two years she 
participated, and participated in the International Science 
Fair. She has now--I believe largely because of that 
experience--chosen a career in science and is doing her Ph.D. 
in molecular genetics at Vanderbilt University. So it is really 
exciting to me to see the results of those kinds of 
opportunities.
    Time for professional development and collaboration with 
other teachers is an important part of maintaining teacher 
motivation and excitement. One of the challenges of teaching in 
Bush, Alaska, in a small town of 600 people, is the isolation 
of schools and teachers. This is the case, also, in many 
western states where the schools are widespread. We have a hard 
time, then, getting time for collaboration.
    When we moved into Fairbanks from the Bush, I heard about a 
project called POLARIS, which was Project On Leading Alaska's 
Restructuring In Science, and I participated and immediately 
saw the value of long-term projects connecting 80 to 100 
science teachers from five different school districts. This was 
a project that was funded by NSF. During my time in this 
project, we met 12 days each year over a four-year period, and 
we learned about current research in good practices in teaching 
science. We developed our content knowledge. We were able to 
share successful lessons, and we were able to discuss ideas 
with colleagues. It is an incredibly valuable experience that 
kept me thinking ahead to new strategies and constantly 
reevaluating my practices.
    Teaching is a great career with many intrinsic rewards, but 
often few opportunities for public recognition, and programs 
such as the Presidential Awards for Teaching Excellence in 
Teaching Science and Mathematics, National Board Certification, 
Fulbright Teacher Exchange Program, all serve as motivators, I 
think, for allowing public venues--motivators of teachers by 
allowing public venues for recognition of good teaching.
    My parents raised me to take advantage of many 
opportunities that were available to me, and I think I have 
been able to do that during the course of my career. They also 
told me to be thankful for those who are responsible for those 
opportunities, and so I would like to take this time, once 
again, to thank you for all of the programs from which I, and 
other teachers, have benefited, and encourage your continued 
support for those programs. Your support of legislation 
providing funding is, of course, important, but there are also 
things that don't cost any money that you could do.
    Ms. Jackson Lee. Oh, my.
    Ms. Ehnert. Do I have your attention? Next time you are 
back in your home school district, visit a school science fair, 
or send a certificate of congratulations--send certificate of 
congratulations to the high school students and their teachers 
that have done well in science fairs and symposium. Form an 
education advisory group to allow practitioners some input into 
legislation affecting them. Help to return science to a 
national priority like it was in the '60's.
    Nothing catches the interest of the public like space 
exploration. This Committee has a rich history of supporting 
NASA, work for which you should be commended. President Bush, 
in a speech at NASA headquarters in January, said completion of 
the International Space Station and manned missions to the 
moon, and eventually to Mars, was a priority. These projects 
are incredible opportunities for us to teach integrated 
science, and nothing catches the interest of the public like 
space exploration.
    I encourage your continued support for, and promotion of, 
scientific and educational outreach efforts of NASA. Continue 
your efforts to promote public awareness of the results and 
future possibilities of the Human Genome Project, alternative 
energy research, and other leading edge projects. Let us get 
the citizens of the United States excited about science again.
    Your support of opportunities in research for both teachers 
and students, professional development, recognition of work 
well done, and a public relations campaign to promote public 
interest in science research, all contribute to maintaining 
levels of excitement and commitment in teachers. Thank you, 
once again, for the work you have done in these areas, and that 
encourage and reward efforts of good teachers across the 
country, and thank you for giving me the opportunity to testify 
today.
    [The prepared statement of Ms. Ehnert follows:]

                   Prepared Statement of Wendy Ehnert

Chairman Boehlert, Committee Members:

    Greetings from the teachers of Fairbanks, Alaska--land of dog 
mushing, Northern Lights, and great schools. Thank you for your 
invitation to speak for a few minutes this morning.
    My name is Wendy Ehnert. I am a science teacher at Lathrop High 
School in Fairbanks, Alaska. In my 16 years of teaching, I have had the 
pleasure to work with students from rural and suburban Minnesota, 
small, remote villages in Alaska, a gymnasium in a city in the eastern 
Czech Republic through my participation in the Fulbright Teacher 
Exchange Program, and in Fairbanks, a city in the interior of Alaska. 
Although the backgrounds of these students have varied, the qualities 
of good teaching have not. There are many different styles of teaching, 
and trends come and go in the field of education. But I think that one 
of the main qualities of good teaching is the ability to excite 
students about the topics being studied. To me, this means that a 
teacher must maintain his/her own level of excitement about learning. 
Think back to your days in the classroom. What teachers were most 
influential in your education? I'll bet it was someone who loved their 
subject matter, and was able to convey that excitement to those of you 
sitting on the other side of the desk. I want to focus my remarks this 
morning on how a teacher can maintain that level of excitement year 
after year. For science teachers, this can occur through opportunities 
in research for the teacher and their students, opportunities for 
professional development and advancement, and recognition of good work. 
The Federal Government, through funding and leadership, can be an 
important part of this mission.
    One of the great things about teaching science is that there are so 
many things to learn! I have been fortunate in being able to 
participate in many federally funded programs that have allowed me to 
broaden my science content and research background. I have received 
funding through NIH and NSF to do molecular biology research with 
minority Alaska teachers and students, recover and analyze dinosaur 
bones from the Colville River in northern Alaska, learn computer 
modeling software to analyze complex systems that change over time and 
collect and analyze algae samples from a Coast Guard ice cutter in the 
Southern Ocean near the Antarctic continent. I am able to share these 
experiences with my students in the classroom. This not only serves to 
personalize topics students are learning in class, but also allows 
students to see the amazing opportunities available to them in 
scientific research.
    My students have been lured into research by the opportunities 
provided through the National Junior Science and Humanities Symposium 
(co-funded through the U.S. Army, Navy and Air Force) and the Intel 
International Science Fair (partially sponsored by the U.S. 
Environmental Protection Agency). Many of the mentors with whom my 
students have worked over the years (principally those at the 
University of Alaska Fairbanks) have funding from NSF or NIH, and have 
generously shared their money and expertise with my budding scientists. 
Not only do the students get excited about what they are doing, but 
also I have a chance to learn more about research in that field of 
study. Opportunities such as this for my students are very satisfying 
to me as I watch my students become scientists during the course of the 
project. These opportunities to do research often sway students of many 
talents into choosing a career in science over other fields of study. 
One of my former students, Sarah, was a very talented writer, musician, 
public speaker and overall good student. As part of the requirements 
for my biology and chemistry courses, Sarah did independent research 
projects that she was able to present at the Alaska State High School 
Science and Engineering Fair. In the two years she participated, she 
won first and second places overall, and was awarded a trip to the 
International Science and Engineering Fair each year. Largely due to 
the success of her research projects, Sarah chose a career in science, 
and is now a Ph.D. student in molecular genetics at Vanderbilt 
University. She is just one example of the many students who have been 
encouraged through these programs. It has been very exciting to me to 
see such positive results from these endeavors.
    Time for professional development and collaboration with other 
teachers is an important part of maintaining teacher motivation and 
excitement. One of the challenges of teaching in Bush Alaska is the 
isolation of schools and teachers. This is the case in many western 
states where schools are spread out over large distances. This makes 
collaboration among teachers a challenge. When we moved to Fairbanks 
and I heard about POLARIS (Project on Leading Alaska's Restructuring in 
Science), I participated and immediately experienced the value of a 
long-term project connecting 80-100 science teachers from five 
different school districts. This project was funded by NSF. During my 
time in this project, we met 12 days each year over a four-year period 
learning about current research in good practices in teaching science, 
developing our content knowledge, sharing successful lessons and 
discussing ideas with colleagues. It was an incredibly valuable 
experience that kept me thinking ahead to new strategies and constantly 
evaluating my practices.
    Teaching is a great career, with many intrinsic rewards, but often 
few opportunities for public recognition. Programs such as the 
Presidential Awards for Excellence in Teaching Science and Mathematics, 
National Board Certification and the Fulbright Teacher Exchange program 
all serve as motivators for teachers by allowing venues for public 
recognition of good teaching.
    My parents raised me to take advantage of as many opportunities as 
were available to me, and I think I have been able to do that during 
the course of my career. They also taught me to be sure to thank those 
responsible. So, I would like to take this time to thank you for 
support of all the programs from which I and other teachers have 
benefited, and encourage your continued support for these programs. 
Your support of legislation providing funding is, of course, important, 
but there are also things that don't cost any money that you can do to 
support teachers and students through your interest in their good work. 
Next time you are back in your home district, visit a school science 
fair or send a certificate of congratulations to the high school 
students and their teachers that have done well in science fairs and 
symposia. Form an education advisory group to allow practitioners some 
input into legislation affecting them. Help to return science research 
to a national priority like it was in the 1960's. Nothing catches the 
interest of the public like space exploration. This committee has a 
rich history of supporting NASA, work for which you should be 
commended. President Bush, in a speech at NASA Headquarters in January, 
set completion of the International Space Station, manned missions to 
the Moon, and eventually manned missions to Mars as priorities. Space 
science is a great vehicle for teaching integrated science. Although 
these projects carry a large price tag, the value of exciting a 
generation of students who become interested in pursuing careers in 
science and math as a result of these projects is immeasurable. I 
encourage your continued support for and promotion of scientific and 
educational outreach efforts of NASA. Continue your efforts to promote 
public awareness of the results and future possibilities of the Human 
Genome Project, alternative energy research, and other leading edge 
projects. Let's get the citizens of the United States excited about 
science again.
    Your support of opportunities in research for both teachers and 
students, professional development, recognition of work well done and a 
public relations campaign to promote public interest in science 
research all contribute to maintaining levels of excitement and 
commitment in teachers. Thank you once again for the work you have done 
in these areas in support of programs that encourage and reward efforts 
of good teachers across the country, and for giving me this chance to 
testify before you here today.

                       Biography for Wendy Ehnert

Formal Education

Master of Arts in Teaching Biology, University of Alaska Fairbanks, 
        (Cum. GPA: 4.00), 1995.

Bachelor of Science, University of Minnesota College of Education, 
        (Cum. GPA: 3.56).

         Majors: Life Science, Junior High/Middle School Science, 1986.

Teacher Certification

National Board Certification in Adolescence and Young Adult Science, 
        11/99.

Alaska Advanced Teaching Certificate in Adolescence and Young Adult 
        Science, 11/99.

Teaching Experience

Science teacher (AP Biology, chemistry, biology, Introductory Physical 
        Science, 7th grade life science), Fairbanks Northstar Borough 
        School District, Fairbanks, AK, 8/95-present.

Fulbright Exchange Teacher (biology), Gymnazium Hejcin, Olomouc, Czech 
        Republic, 8/01-6/02. I taught four different biology classes in 
        English to 220 Czech students (ages 14-20).

Science teacher (biology, chemistry, Introductory Physical Science, 
        earth science, 7th and 8th grade science), Frank A. Degnan High 
        School, Bering Strait School District, Unalakleet, AK, 8/90-6/
        93.

High school science teacher (biology and IPS), Mound-Westonka High 
        School, Mound, MN, 8/87-6/89.

Junior high science and math teacher, LeSueur, MN, 10/86-6/86.

Awards, Grants and Professional Organization

Participant in an NSF-funded, research and educational experience in 
        the Southern Ocean and Antarctica, 12/99. I authored a daily 
        journal that was posted on the Internet (via satellite) and 
        conducted research on phytoplankton.

Grant coauthor and coordinator for an interdisciplinary project, ``DNA 
        Analysis of Evidence at the Scene of a Simulated Burglary--An 
        Interdisciplinary Activity.'' AP Biology students ran DNA 
        fingerprinting analysis of ``evidence'' left at the scene of a 
        simulated crime. The unit was done in cooperation with the 
        American Government and American Legal System classes. Fall, 
        1997 and Fall, 1998.

Grant coauthor and coordinator of the Minority High School Student 
        Research Apprenticeship Program (later renamed MASTER), a 
        biomedical research program for minority high school students 
        and their teachers at UAF funded by the National Institutes of 
        Health, 1994.

Member of the National Association of Biology Teachers, National 
        Science Teachers Association and Alaska Science Teachers 
        Association.

Participant in POLARIS (Project On Leading Alaska's Restructuring In 
        Science), an NSF-funded grant dedicated to updating teachers in 
        research and current practices, 1995-1999.

Participant in CC-Sustain, an NSF-funded grant in which participants 
        learned about System Dynamics, and specifically the use of the 
        computer modeling program, STELLA , 6/97.

Professional Service

Founder/coordinator of the Fairbanks High School Science Seminar 
        Series, a project in which university professors and other 
        experts provide evening lectures 3-4 times each year for 
        interested high school students, 1998-2003.

Member of the organizing committee of the Alaska State High School 
        Science Symposium, 1996-present.

Mentor for high school students doing independent research projects, 
        1989-present.

Reader for National AP Biology exams, 1999-2001, 2003.

Alaska State Science Fair Chief Judge and Alaska Science Symposium 
        Judge, 1994-97.

Hobbies and Interests

Dog mushing, running, racquetball, and gardening.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Discussion

    Mr. Smith. Ms. Ehnert, again, thank you very much. We are 
going to now proceed to the questions and responses from the 
witnesses. I would hope we would try to have both the questions 
and the responses somewhat brief because this is the Nation's 
highest commendation for K-12 math and science educators. Any 
of you could have been at the witness table, and what we plan 
to do is pass a microphone around after the question and answer 
period to have any teacher that would like to make some 
additional comments to the Committee make those comments. And 
with the leave of the Committee, I am going to ask Mr. Ehlers 
to make his comments. He is leaving and then going to return.
    Mr. Ehlers. Thank you, Mr. Chairman. I apologize. I will be 
very brief, but I have to leave to accept an award on behalf of 
the city I live in, but I will be back as soon as I can. This 
has been the most fun I have had in a long time. I spent 22 
years doing what you are doing every day, and I have got to 
tell you, it was a lot better than what I am doing right now.
    But I certainly appreciate your coming here, and want to 
congratulate you. I also just want to comment, Mr. Roland, the 
business of understanding how a Xerox works may be more 
important than you realize. There was a case of a woman who 
gave--asked an intern to get some more paper for her--to bring 
another ream of paper. He came back and said ``the cabinet is 
empty,'' and she said, ``well, just go get some from the Xerox 
machine.'' And he didn't come back for a long time. Finally, 
she went to look and he had put a blank sheet of paper in the 
machine and punched 100 in order to get 100 sheets of paper.
    So, with that, I will leave and I will be back as soon as I 
can.
    Mr. Smith. Gentleman from Minnesota, Mr. Gutknecht.
    Mr. Gutknecht. Well, first of all, let me tell everybody 
that Dr. Ehlers not only is a member of this committee, but he 
is also a physicist with a sense of humor as you already know. 
Matter of fact, once in a while, he wears a pin that says, ``As 
a matter of fact, I am a rocket scientist,'' so----
    I, just again, want to welcome all of you and thank you for 
coming. I apologize that we here in Washington--you may not 
know this, but our staffs tend to schedule meetings on top of 
meetings, so you will see members coming and going. I have to 
leave as well, and I apologize for that, because I agree with 
what Dr. Ehlers said; this has been one of the most interesting 
and entertaining panels we have ever had before this committee, 
and so I thank you for that.
    I happen to believe that two of the most important words in 
the English vocabulary, in terms of the results that you get in 
life, are, first of all, the word ``attitude,'' and the second 
word is ``enthusiasm.'' And what we have seen this morning are 
really good examples of both. Tremendous attitudes and an 
enthusiasm for the subjects which you are trying to teach. I 
might add that the most important four letters in the word 
``enthusiasm'' are the last four: i-a-s-m, and they represent 
``I am sold myself.'' And I think if you are going to be a good 
teacher, you have to have a good attitude and you have to have 
enthusiasm.
    And I guess the question, and I am not sure, and I think in 
some respects Ms. Ehnert sort of answered this question in her 
testimony. But I guess the question we always have is what can 
we do, from a federal perspective, to motivate teachers, 
because I think we have heard a little bit of how we can 
sometimes, you know, through the best of intentions, maybe de-
motivate some teachers out there. But are there some things 
other than having events like this--and I think some of the 
other things that were mentioned--any ideas that you can share 
with us individually that we might be able to do from our 
perspective, or from a federal policy perspective--to encourage 
better attitudes and more enthusiasm?
    That is a tough question. You may not want to jump in, but 
if you have any ideas, we would love to hear them.
    Mr. Cushner. I will give it a shot. So, one, I agree with 
the recognition as wonderful, and I don't think necessarily, 
like, more pay is something that really--you know, more money 
is always good, but I don't think that affects the attitudes of 
teachers as much as really--often they feel like they are not 
respected as a profession.
    I love teaching. I love working with kids, and many people 
are in it because they do, but they feel, like, a loss of 
power. I think one of the biggest things we do is empower 
teachers, just as teachers we want to empower students to do 
great things in the world, we also want to be empowered to do 
great things in our profession. And so, the more that you can 
do to create groups where teachers are working to improve what 
is going on in the profession, it really gives us a sense of 
accomplishment, and really, like, stimulates our thinking. And 
I think that makes us feel better and gets us excited about 
solving the problems that we are dealing with in education.
    Ms. Ehnert. I know one thing that I didn't get a chance to 
mention that you have done. I think through your direction at 
NSF there is a component of all NSF grants, it is my 
understanding, that has to include K-12 education, and so they 
are seeking us out and looking for opportunities in which to 
include us, and that has really been very, very helpful. And I 
think things more on that nature where you--there is a 
directive that you can have this money, but you have to share 
the wealth a little bit, and that has really been very helpful.
    Ms. McGee. I guess we will all try. I think that an 
understanding of the profession of education has to kind of 
trickle down in the sense that, you know, one of the nice 
things about being here with my esteemed colleagues behind me 
is that we understand each other and we understand why we do 
what we do. And sitting here in front of you, I think the one 
thing that I hope that you walk away with is that we want to 
share that with you, and the more opportunities that we have to 
do that, the better. I was really impressed--I think all of us 
here are tremendously grateful for the National Science 
Foundation and the funding and the initiative that they have in 
the programs that they have developed, because what they have 
done is they have given us an opportunity to have our voices 
heard by a variety of people.
    As in working with higher education university professors, 
when they get a chance to sit down and to talk with us, they 
are impressed and motivated to try and do more for science 
educators in the secondary, and even in the primary level. And 
so I think it has to be a little bit of a grass roots thing, 
but we have been given an opportunity to be able to talk to the 
people who make a difference in the whole process of education. 
And again, I think that trickles down.
    The fact that you are sitting here listening to us is 
powerful, not just to us, but to others, and the more 
opportunity that we have for that to occur, I think the more 
our message is heard. So thank you.
    Mr. Smith. Mr. Roland, a short comment?
    Mr. Roland. Sure. As Gail said, that grass roots is a very 
efficient way of empowering teachers directly.
    Mr. Smith. In Congress, we call the--essentially the Vice 
Chairman of the Committee the Ranking Member, but Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. This has been a very 
informative hearing and I thank you for being here. I wish that 
we had the ability to extend this to a week-long seminar and we 
could cancel the other meetings and bring all the Members of 
Congress in. I think we would all be much better informed.
    As I mentioned earlier, I am the son of two teachers and I 
taught briefly myself, and I think if there was a magic wand 
that we could do on the federal level, it would be to reduce 
the student-teacher ratio. I don't know what we could do that 
would be more important.
    Many of us have proposed for some years that we have a 
program similar to putting the 100 additional--100,000 
additional policemen on the street, to put 100,000 additional 
teachers in the classroom with federal help. That would, in 
turn, lower the teacher-pupil ratio, but none of us in the 
minority have been successful in convincing the majority that 
is the best thing to do. Maybe, if you agree, you might want to 
discuss that as you make your rounds.
    But we are limited here today, so I want to focus more on 
federal programs. I think Ms. McGee was very helpful in talking 
about the repository and the network. These are things that, in 
tough budget times, could be done, it should be done, and I 
want to look into that more. And so, I really would like to get 
your thoughts on what are the, you know, the federal programs 
that are working, in terms of helping you with your 
professional development or materials, and what isn't, and what 
we need to change, and if you want to vent a little bit about 
No Teacher Left Behind, you can do that while you are at it.
    So, why don't we--we always start at this end, so why 
don't--we will start at Alaska this time.
    Ms. Ehnert. Well, I guess the last program that I spoke of 
was really, really a helpful program. It was a limited grant. I 
think it ran four years. It was a three-year grant and we had 
one year that was an extension, and that was just a great 
thing, especially in Alaska. At that time, this was really kind 
of as the Internet was just beginning to be used in the 
classrooms and teachers were starting to use it, and so----
    Mr. Gordon. This was National Science funded?
    Ms. Ehnert. It was, yes. It was funded by the National 
Science Foundation as a--and I don't know under what the--you 
know, what the scope of the proposal was, but it was----
    Mr. Gordon. Let me just ask in general. Have people been 
pleased with the National Science Foundation?
    Ms. Ehnert. Yeah, yeah.
    Mr. Gordon. Thank you. As Mr. Smith pointed out earlier, 
there----
    Mr. Smith. We should somehow let the record show that.
    Mr. Gordon. Yeah. As Mr. Smith pointed out earlier, I am 
sure it is a good faith effort. They are trying to shift much 
of this to the Department of Education, but many of us, in a 
bipartisan manner, feel that the National Science Foundation 
has done a good job and should continue. And so I hope that you 
will also communicate that while you are here, because that is 
going to be a battle. That--you know, again, the Administration 
wants to move it to the Department of Education. It looks like 
there is more money being spent in Education, but there is not. 
It is just a shift, and so please help us to communicate that.
    Ms. Ehnert. I can't tell you how critical that is, because 
what is so powerful about having the National Science 
Foundation play a role in education is that they are scientists 
first, and, you know, I think that having that science 
perspective is so critical in being able to understand what 
worked for them. You know, we were addressed by a Nobel 
Laureate in Physics at the Science Summit from the Secretary of 
Education, and you know, what he said was really powerful. You 
know, that you have to remember how you got here and who got 
you here. And I think that scientists don't forget that the way 
the educators do.
    And so you do a disservice to the field of science by 
trying to combine it with the Education. The National Science 
Foundation has a really--an excellent approach to education, 
and I think that is something they never forget as being 
critical.
    Mr. Smith. One of our jobs here is to make tough choices 
between limited resources and unlimited needs, and it is 
rewarding for us to hear that some programs are working well 
and that the money is being spent well. And so, again, I would 
suggest to you that as you make your rounds, and as through 
your groups, that you communicate you are not social scientists 
or political science teachers, but you still know this is the 
way the process works, and hope you will communicate back to 
the Members of Congress that you are going to be talking with 
now or later about the importance there. I guess we will just--
does anybody else want to make a quick statement and then we 
better move to the next questioner?
    Mr. Cushner. I will. Two things. As far as federal 
programs, definitely professional--NSF-funded professional 
development and curriculum has made a huge difference, both 
with based on the standards with, like, IMP [Interactive 
Mathematics Program], and also the--I worked with this program 
called Kimsec Astronomy which helped create--teach astronomy in 
a way that was really hands-on, very physical, that a lot of my 
students who struggle in school really related to. And then 
also you asked about No Child Left Behind, and both--I talked 
about how the task hinders us. I feel like those--like, we are 
trying to improve education. It is like trying to increase the 
weight in a cow, or, yeah, increasing the weight of a cow by 
weighing it more often. We are not improving the practice, 
which is what needs to be done. And, also, highly qualified 
folks are so much on content and not so much on practice where 
I feel like that is where we need the grass roots movement 
where we have teachers working with teachers to improve 
practice.
    Mr. Gordon. And Mr. Chairman, if I could just real quickly. 
You have mentioned these programs. Now how easily accessible 
are they? I mean, you are award winners. You are going to be 
more aggressive in seeking out this information and trying to 
get the grants. If you are not an award winner but maybe could 
be or should be--just, I mean, if you are a regular teacher out 
there, do you know about this information?
    Mr. Cushner. Well, I can answer that----
    Mr. Gordon. And if not, what do we need to do better to 
make these--make this--the various federal programs and 
National Science Foundation information more available?
    Mr. Cushner. Well, the IMP matrix that was developed with 
NSF funds has now been taken over by Key Curriculum and they 
are producing it. It is being adopted by more and more 
districts--school districts throughout the country, so I think 
that is great. But one of the things that made a difference 
that NSF did is, not only did they fund development of the 
curriculum, but they funded professional development by 
teachers, for teachers to go along with it, because teachers 
really----
    Mr. Gordon. And how do you know about it? I mean, how----
    Mr. Cushner. Right.
    Mr. Gordon [continuing]. If this got to Coalmont, 
Tennessee, you can get anywhere.
    Mr. Cushner. Right.
    Mr. Gordon. So I mean, it must be out there, but, you know, 
how do you know about it? How did you know about this?
    Mr. Cushner. Mostly it has been word of mouth from other 
teachers, and like, one teacher in the district will talk to 
another one and then talk to the administration about getting 
it, and sometimes they have been helpful in getting that in, 
and sometimes it has not been successful.
    Mr. Gordon. We need to do a better job somehow of making 
that available. Thank you for indulging me in that extra time 
there.
    Mr. Smith. Yeah. Just as a reminder, NSF has a web site 
where these are reported, and Ms. Ehnert, the broader impact 
statement that is part of all the grants ends up being reviewed 
on that web site. I will take my five minutes now, and I guess 
having a wife who was a teacher and two--a daughter and a 
daughter-in-law who are teachers, they have instilled in me 
maybe that a quality teacher sometimes is more important than 
the particular knowledge, and so I wanted to ask you that 
question.
    If you have a choice, and of course, you would rather have 
a combination, but if you had the choice of somebody that--a 
teacher that has a--whatever--a Master's degree in Physics or 
whatever, or a teacher that loves teaching, that loves their 
students, that was willing to do the work hard on the lesson 
plan for the next day, what is more effective, and starting 
with you, Mr. Roland, and just, maybe, going down the list.
    Mr. Roland. The thing is that is a great question. When I 
walk into my classroom and I look around at those students, I 
tell them it would be arrogant of me to think that I am the 
most intelligent person in this room. I would--I would be happy 
to find myself in the top 50 percent. They are wonderful, and 
it is not my knowledge that--I learned as much as I can, but it 
is my ability to communicate that enthusiasm, I think, that 
motivates them.
    Boy, it is a--teaching is an art. It is not a science. No, 
it is a science, too. You may want to talk to them.
    Mr. Smith. Yeah. Ms. McGee?
    Ms. McGee. I taught for five years at Magna High School for 
Health Professions and as a biology teacher, I was very 
spoiled. My students were very interested in what I had to say. 
But what I saw happen over and over again is that individuals 
from professional fields--doctors and researchers from medical 
schools, et cetera--would decide to take a break and teach, and 
they would come into the classroom with very lofty ideas and 
certainly a mastery of the content and they would flounder and 
they would leave by Christmas. And what a travesty that is.
    And the answer is really very simple. I think that each of 
them could have survived and could have become very good 
teachers, but they didn't ever get the opportunity. They 
thought that teaching was easy and that the hard part was 
knowing the information, and I think it may be the opposite 
way. Certainly, the audience that you see in front of you, we 
are probably all here because we do have the passion and we do 
make the effort to be involved in all those National Science 
Foundation activities and opportunities, but we do that because 
we love what we do, first and foremost.
    I mean, we--I would--I speak for the group, I think, in 
saying that we consider ourselves teachers first and foremost 
and then mathematicians and scientists as a luxury. And so that 
is why one of my recommendations to you was that as good as 
your content standards are at the national level, there is 
hardly anything at all in terms of professional standards, you 
know. And again, there is no point to reinventing the wheel. 
There are teachers who know how to do this right, and if you 
give them an opportunity to share their methods and their ideas 
and their philosophies to people who are interested and eager 
to learn, they get an opportunity----
    Mr. Smith. I suspect it does make somewhat of a difference 
if you are teaching advanced calculus or advanced biology----
    Mr. McGee. Indeed.
    Mr. Smith [continuing]. As opposed to exciting students in 
the first, maybe, eight grades or something. Mr. Cushner?
    Mr. Cushner. Thank you. I do think content knowledge is 
important, and there is no doubt in my mind that passion and 
enthusiasm for teaching makes a huge difference. It is most 
important to make any difference for those students' lives. 
Like for them to take the risk to push themselves and learn 
difficult material, they have to have a safe and loved for 
environment and they have to be interested in it. So yeah, 
passion and enthusiasm makes it. I mean, just being around 
these people here makes me inspired to learn science, so----
    Mr. Smith. Ms. Ehnert?
    Ms. Ehnert. Well, I don't think I have much extra to add, 
except that I do really--you need both certainly content and 
enthusiasm, but I always think it is very cool and really 
motivates my students when I tell them I don't know the answer 
to the question I have just asked them, and they are kind of 
amazed. And I say, well, you know, there are a lot of things I 
don't know, and that is why I am helping you to develop these 
skills so that you can figure them out and I can go to your 
Nobel Prize winning ceremony. Please remember me, Wendy Ehnert, 
Fairbanks, Alaska, so that you can send me an invitation.
    Mr. Smith. Briefly the other area that I am concerned with 
is greater involvement of parents. Any tricks of the trade that 
you might pass on to us that you have discovered in reaching 
out to get the parents more interested and involved? Starting 
with you, again, Mr. Roland?
    Mr. Roland. Sure. I ordinarily--I send home assignments for 
my students to teach their parents. That is--it doesn't cost 
anything, and they--the students become teachers to their 
parents and families.
    Mr. Smith. Okay.
    Mr. Roland. And that seems to work.
    Mr. Smith. Ms. McGee?
    Ms. McGee. And that is interesting because I do very 
similar things that--many of the long-term projects that we do 
are--purposefully have an element of parental involvement. My 
classes, we develop a newsletter that we send home to our--to 
their parents and so that they can see what they learned, and--
but I think you are right. I think it is one of the gaps that 
we need to bridge, because certainly the parents have a 
motivated interest in their students to begin with, and if we 
can tap into that, then we would have a tremendous resource 
that I don't know enough of us are using.
    Mr. Smith. Mr. Cushner?
    Mr. Cushner. I would say I teach some of the most amazing 
and talented kids in the world and their parents don't support 
them in education. I can't even get a hold of some of their 
parents. But, I think one thing that would help is for some of 
the other schools to provide translators or multi-lingual 
people to help support us in talking to--a lot of my parents 
don't speak English, and I need help communicating with them to 
get them involved. Thank you.
    Ms. Ehnert. And the only thing that I could just add is use 
of the Internet has been incredible. I mean, it has--you know, 
people say, oh, well, I don't like email, but it is really 
helpful, and as Jason suggested, it is difficult sometimes to 
get a hold of parents, and just being able to send them a quick 
message has really helped our communication, I think.
    Mr. Smith. Thank you. Mr. Honda?
    Mr. Honda. Thank you, Mr. Chairman, and to our folks here 
in front, the teachers. Thank you very much. I am a classroom 
teacher, too. I taught high school science, and my wife's been 
a lifelong kindergarten teacher, and it is refreshing, thank 
you, to hear folks who say that parents and teachers are not--I 
mean teachers and students are not problems, that we need help 
in order to do our job better. It is refreshing to see the 
folks see teaching as a calling, and also have not lost their 
fire and their determination to be with young people, and I 
really appreciate that. I want you to know that. Sitting up 
here and working under the dome here in D.C. can sometimes be 
pretty frustrating when you know that people out there are 
doing the best that they can with the resources that you 
receive, under pressures, under expectations that are imposed 
upon you, including un-funded mandates and all that sort of 
stuff.
    It seems to me that this is a great process for us to start 
on the way to creating bills rather than having you come up and 
respond to what it is that happened to you. You see, and so 
being teachers, I suspect you also understand the difference 
between a food chain and a food web. Politics and pedagogy are 
a food web. What we do in politics in one area will affect you 
eventually in some form or fashion, and I would advise and just 
counsel, as a teacher--a classroom teacher--that when the--when 
bills start to form and the political process starts to form, 
that classroom teachers get involved at the local level with 
your local legislators immediately at the get go and send a 
couple of messages like, you know, we are here to do the right 
things with our kids, but support us by not promoting and 
continuing un-funded mandates and, you know, and fulfill the 
promise that you have had at the federal level right down to 
the local level.
    And that, you are right, you know, content is important and 
how you go about doing that is critical, but the support that 
you need is even more critical as classroom instructors, and I 
heard that very loudly and clearly from your comments about 
constantly learning. Assuming that you don't know more than the 
youngsters, assuming that you are there to facilitate a lot of 
things so that the youngsters can learn to learn, and that 
failure is not something that is bad. I mean, our scientists 
fail more than they succeed. And, so, I think that is the kind 
of message that policy makers have to understand to create 
policy that is precise and elegant and is more effective for 
you as classroom teachers, and, you know.
    I don't have any questions. I just have commendations to 
you, and I want you--to let you know that through your 
organization, it is very important to work the organization, 
but just as important on an individual basis just because of 
your experience on a daily basis to sit down with policy makers 
at the local level--us--at home, and demand that we give you 
that time to understand how to shape that policy from home to 
here and back home. And, as a classroom parent and as a parent, 
I thank you. Thank you very much.
    Mr. Smith. From--I am needed in the International Relations 
Committee, and I am going to try to return, but turn the Chair 
over to the Chairman of the Subcommittee on Environment, 
Technology, and Standards, the Honorable Vernon Ehlers, from 
the State of Michigan. And thank you all again if I am not able 
to get back.
    Mr. Ehlers [presiding]. Okay. Just by coincidence, it 
happens to be my turn to ask questions. I assure you that is 
accurate. I--it is just such a delight to have you here, and I 
am not talking just about the four witnesses, but to have a 
room full of people interested in math and science education is 
wonderful. I spent a lot of my time jaw boning colleagues and 
giving speeches to other groups, and it is so nice to have a 
receptive audience. And so, I simply want to thank you for what 
you have done.
    My experience was many years ago as a young professor of 
physics and very concerned about what was then called 
scientific illiteracy. I would simply ask myself what can I do 
to make a difference, and so I started a special course--since 
teachers had to take a physical science course, I started a 
special course for them which not only taught physical science 
but how to teach physical science, and all the lab equipment 
came from elementary school programs that had--that used 
equipment, so that when they got out in the schools, they might 
have a chance of finding a piece of equipment that will look 
familiar and say, yes, I can do this, because I found in my 
work with teachers, one of the greatest problems was lack of 
confidence in their ability to teach it.
    And I have--I have never criticized teachers because I have 
had so many teachers who do not teach science well but want to 
teach it well and don't know where to start, and so I think our 
responsibility as the Federal Government, and as the National 
Science Foundation, is to provide pre-service and in-service 
training for teachers to give them the confidence to teach 
science. And I always try to instill in them confidence in my 
classroom by not hesitating to say I don't know when they ask 
me a question, and said let us see if we can find out.
    I have a couple of questions--specific questions I wanted 
to ask you. Two questions, and I will just go down the line 
after asking them. First of all, teacher retention in math and 
science, particularly in the high schools is a major problem. 
Over 60 percent of the teachers teaching math and science in 
junior high and high school have neither a major or a minor in 
a science, and yet when we get good people, they tend to leave 
primarily because they make better money elsewhere. I am 
interested in your opinions of the causes of that turnover, 
and, secondly, on solutions.
    I have suggested a merit pay. It is--no, it is not merit 
pay. It is extra pay simply to meet the market, and I have 
always found it strange that when we look--while we live in a 
country that is built on the free enterprise system and 
providing incentives, and employers always meet the market for 
someone they want to hire, somehow we have this idea that 
teachers should all be the same and the market has nothing to 
do with how much they should be paid. I would like your opinion 
on that and other things we can do to keep good teachers in the 
classroom.
    The second question is, as you all know, the Third 
International Math and Science (TIMS) Study, which is so often 
quoted, shows us that we are doing reasonably well at fourth 
grade--still not great, but reasonably well, but our 12th grade 
students are not doing well in math and science compared to 
other countries. And I would be interested in your opinion on--
of the reasons for the fall-off. So, we have always been going 
left to right from our point-of-view, this time I am going to 
go left to right from your point of view, so Ms. Ehnert, would 
you start?
    Ms. Ehnert. Thank you Dr. Ehlers. First of all, I think you 
are right in saying that if a teacher leaves the profession, it 
is--well, it is probably for a number of reasons, but, of 
course, financial issues are a consideration, and one of the 
problems that I see is that one of the ways that you can 
improve your salary and education is to leave the classroom, 
and that is a shame. And, so, if there is some way to--I think 
your suggestion of some kind of bonus or whatever that could be 
given to those teachers who have shown that they have done a 
good job, that would be a very helpful thing because right now, 
as it is, you know, you get to the top of the salary scale and 
you want to increase your pay, and then you end up being an 
administrator and then you are out of the classroom. And in 
some ways, that is good, but it is not always the best for the 
students, I think. But, I would really like to address the TIMS 
issue.
    I did teach in the Czech Republic for a year, and I think I 
have a perspective on the education system in Europe. Having 
done that, I was able to go to Germany and talk to some people 
there, and to some people that taught in Hungary, and some of 
the countries in Central Europe. Those schools that are being 
tested, I believe, are testing the top students. They are not 
testing everybody and that is really the problem.
    We here in this country believe in education for all, and 
we are trying our best, as Jason has very eloquently suggested, 
to get everybody and to really hook everybody, and they are not 
doing that over there. I mean, they definitely stratify, and 
the students that are being tested are those that have been 
selected, and their education system is quite different in that 
respect. And so I think it is really comparing apples to 
oranges because by the time the students get--fourth grade 
students, everybody is tested in Europe, as well as here, and 
then as they get to eighth grade, they are weeded out a little 
bit more over there, and when they are in tenth grade and 12th 
grade, they are even more selected. And so, I think it is 
really--it is an unfair comparison.
    Mr. Ehlers. Mr. Cushner?
    Mr. Cushner. Thank you. Waiting to see what happened with 
the applause. Okay. So for the first one, to keep teachers, I 
think, yeah, money is good, and also, I think, like, it is 
exciting to try and make a robot do something, or get a man on 
the moon, and I think we need to create, like, teachers as 
researchers and that type of development in teachers so it is 
just as exciting to figure out how do you get this group of 
students to learn or understand the Pythagorean Theorem, or how 
volume works, or derivatives, just like it is trying to get 
something to happen. So I think really promote programs that 
get teachers as researchers where they can have maybe one foot 
in the classroom, then also some time out to develop good 
practice among their colleagues, and make that a fascinating 
part of the job, so they can really make it feel like a strong 
profession and they are involved in the research and making an 
impact.
    And, as far as the TIMS Study, I think--one of the follow-
up studies on the TIMS Study, I think, was done by--I think it 
is James Hebert--compared a lot of the high-performing 
countries to the United States, and all these factors like 
curriculums, technology, how they ask questions, classroom 
size, and, like, most of those factors didn't make a 
difference, but the one thing they noticed in math--this is 
specific to math--is most of what was happening in the American 
classrooms, even if they had, like, discovery-based or more 
alternative curriculum, is most of what the students were doing 
were definitions and follow algorithms and there wasn't a lot 
of, like, the higher order thinking skills.
    And I think it is a cultural practice that has happened a 
lot here in math in this country is that is what math is. And, 
so, we need to work on some grass roots efforts to kind of 
change that paradigm of what teaching math is. It is not just 
knowing the Pythagorean Theorem. It is not just being able to 
know those definitions, but how can we understand the concept, 
how can we do investigations, and really understand in depth 
what these things are and how do we apply under real 
situations.
    Mr. Ehlers. Thank you. And let me just interject here. I 
didn't mean to imply that teachers should be paid the same they 
could get from a software company, because there are a lot of 
other rewards of teaching, but there are--when they can earn 
double somewhere else, that is a serious temptation, so there 
has to be an accommodation. Ms. McGee?
    Ms. McGee. I think potentially the answer to both of your 
questions is that, at least in science, it feels very 
disjointed. I am given a list of objectives that I have to 
teach to my students, far too many to get through in a year to 
begin with, and there is no significant tie between those 
objectives. And I think that that is initially a problem that 
causes teachers to leave because I am so bogged down in the 
details of these objectives, I don't get an often--enough of an 
opportunity to do the stuff that I love.
    You know, and for me, I have personally made the decision 
that my classroom is going to be about the things that are 
important, hopefully not just to me, but to my students as 
well. You know, maybe I am compromising to a certain extent 
those objectives and the testing and what not. Again, I am 
spoiled because my students are gifted and talented, so they 
are going to pass the test, so I have that luxury. But, I think 
that the reason why we lose many of our teachers is because our 
system of accountability is based, at least in my district, on 
two things: test scores and attendance. And I don't know how 
much--I mean, certainly teachers have a role in that, but, you 
know, there are certainly other aspects that we could be held 
accountable for and be rewarded for.
    In our district, we call it incentive pay, and as a 
critical shortage science teacher, I do get an additional 
stipend, you know, and that certainly does keep me where I am. 
But, I also think that disjointed feature of our curriculum 
segues into your second question about our students and their--
how they lose their ability.
    Again, there is--I have 26 objectives that I have to share 
with my students. Of those, 17 are on our Texas Assessment and 
Skills Knowledge test, and there is no rhyme or reason to which 
ones are on there. Again, in looking at the A-Plus countries 
that did really well, in our summit that we were at, they 
showed that, in the United States, we have all 26 of those at 
every level, and in countries that are succeeding in science 
education, in first grade, they tackle one science concept, and 
two in second grade and three in third grade, and so I think 
they probably build upon each other, which is something that we 
are really severely lacking, even in the national standards, 
you know, that--when you think about learning, what happens is 
it is literally a connection between neurons.
    You have to have a neuron connect to one that--an idea 
that--or a piece of knowledge that already exists. It is a 
connection. Why isn't education like that? We have got to be 
able to take concepts that are abstract to students and tie 
them to concepts they already know. That is happening at the 
teacher level and very little anywhere else. I mean, it is not 
dictated in national standards or performance standards or any 
of them.
    Mr. Ehlers. Thank you. Mr. Roland.
    Mr. Roland. Yeah, this doesn't really have anything to do 
with that, but I thought of it and I thought you might like it. 
A testing--tests are to education what quarterly reports are to 
a business, and if that is all the investor looks at, there are 
very creative ways to improve your bottom line, but it ends up 
resulting in accounting scandals eventually. I just thought 
that was neat, so I shared it.
    But, for the teachers, do you know what? It isn't my pay 
that makes me go back, although my children like the paycheck. 
I would do it for free. I would pay my district to do what I 
do. Don't tell them. Don't tell payroll. But it is because I 
love the success, and I think that the doctors and the lawyers 
that come into the classroom are not experiencing the success. 
If they experienced the success, they would claw for it.
    One of the reasons I have experienced success is I was able 
to see good teaching. You know how often we get to see another 
teacher teach? Never. We never get to see--I had to see it on 
video, people like Paul Hewitt and other physics people teach. 
One thing that our county has done is they have done courses--
but I got to teach some courses like you did. Those teachers 
that you taught--those elementary school teachers, I bet they 
loved science from then on, because they learned how to be 
successful by learning from your mentoring in that course. One 
of the courses that I taught for Hopkins, Bill Barnes, who is 
also a--he is an award winner this year, too. He was my 
student, and he had--I attribute his success entirely to that 
class that I taught him.
    This summer, I get to teach a summer institute to 
elementary school teachers, and if you don't see another 
teacher teach well, you don't know how to teach. So if you can 
make things--and make these people see other teachers teach 
well, it helps a lot, that modeling. Thank you.
    Mr. Ehlers. Well, with that humility, you are entitled to 
become a Member of Congress. I thank you all. Next, please to 
recognize Dr. Burgess from Texas.
    Mr. Burgess. Thank you, Dr. Ehlers. I think, just like Mr. 
Honda, I probably don't have a question. I want to be very 
brief because I do want to hear--we are going to run out of 
time and I want to hear your questions from the audience. I 
would just like to say to Mr. Roland, don't disparage the bear 
feeders. When I was in eighth grade, Roger Grote did a very 
efficient job of feeding this little bear and I was halfway 
through medical school before I ran out of steam, and by that 
point, the State of Texas had so much invested in me, I wasn't 
allowed to become a carcass at the side of the road. It does 
work, but that was back in the '60's and things were different 
then.
    I just want to say thank you to all of you for coming here 
this morning. Thank you for what you do. As a physician one 
time, I was one of those doctors who went into the classroom. I 
never went back until, as a Member of Congress, an opportunity 
arose to teach several political science classes, and for 
whatever reason, I found that much easier, perhaps because I 
didn't know as much about it. But, it was much easier to teach 
those classes than it was to speak effectively to students on 
my field of medicine. So, again, thank you for what you do. 
Thank you, the rest of you, for being here through this long 
hearing this morning and listening to soliloquies by both Mr. 
Honda and me.
    We have a saying up here in Washington that with 435 of us 
on the House side, that everything may have been said, but not 
everyone has had a chance to say it yet, so I appreciate you 
staying around and listening to my chance.
    Mr. Ehlers. Gentleman yields back his time. Next, I am 
pleased to recognize another Texan, Congresswoman Eddie Bernice 
Johnson.
    Ms. Johnson. Thank you, Mr. Chairman, and allow me to 
apologize for being in and out. We have so many things 
scheduled at the same time. I would like to ask your unanimous 
consent to file my statement.
    Mr. Ehlers. Without objection, so ordered.
    Ms. Johnson. Thank you very much. And to say to the 
teachers I don't think there is any profession more important 
than teaching. I am from a district that has the number one 
high school for science and engineering and calculus, and one 
of the ways they got there is to have engineers to come in from 
Texas Instruments and that has brought it to be a bit more real 
for them, but I know there is some opposition to bringing 
sometimes professions--professionals that are not teachers into 
the classroom. I would like you to react. Give me your opinion 
of how you see that.
    Ms. Ehnert. It would be a great partnership, I think, to 
have the professionals and the educators working together. That 
is what I would see as being just a fantastic dream world.
    Ms. Johnson. Thank you.
    Mr. Cushner. I agree. It is a great idea, and when I have 
done it, there have always been a few students that have really 
gotten inspired, and some of those people have even stayed 
connected with those mentors into, you know, future 
relationships. It has made a difference in that student's life, 
so I think it is a great thing.
    Ms. McGee. Yeah, I have the luxury of participating in the 
GK-12 program, another National Science Foundation program that 
brings--partners scientists and science educators, and it was 
great. Aside from the formal units that we did, our 
neuroscientist would visit about once a week, and my students 
are so funny, they will--you know, at the end of the day or at 
the beginning of the day, ``well, where is Dr. Dan? Dr. Dan is 
not here today.'' You know, they loved the connection with a 
real scientist, and they got an impression of him as a person, 
and they got an idea that they could do that, that they could 
be him, and that was really powerful. And, I think it is 
something that maybe we don't have enough of an opportunity to 
do with our students.
    Mr. Roland. It is what watching an NBA game does to our 
Gator basketball team.
    Ms. Johnson. I am sorry, I missed it.
    Mr. Roland. They get to see what is out there. It gives 
them the vision, and it is--that has always done that.
    Ms. Johnson. So all of you think----
    Mr. Roland. That is good.
    Ms. Johnson. All of you think it is a good idea to enhance 
your classes with someone from the profession. It makes it more 
real to the students. Is that a common thought? Thank you very 
much. I appreciate that, because my school--one of my school 
districts is wrestling with that now--of bringing in 
professionals, and many of the teachers have reservations about 
it. And I don't mean necessarily to replace them, but to 
enhance the scales.
    Tell me why many of the good teachers leave the schools. 
Give me your opinion, I guess. You are still there, so you 
can't----
    Mr. Cushner. Okay. I would say, one, they feel like it is 
not respected as a profession, or, you know, that they can get 
more respect doing that, and more money off in doing something 
else. And, also, I would say, for some of the people that I 
have worked with that have left, they just feel burdened by 
dealing with some of the emotional and behavior issues of 
students. Like, their passion about math or science or whatever 
their field is, and they are not prepared to deal with the 
behavior and some of the psychological issues that happen in 
students' lives, because you can--there are many days where I 
would feel it would be more appropriate for me to have a degree 
in psychology than math.
    Ms. Johnson. Yes.
    Ms. McGee. I think just to second that, also the 
bureaucracy and the paperwork. I mean, I am obviously probably 
preaching to the choir, but, you know, in public education, we 
have got so many levels of accountability, so many different 
criteria and groups to be able to accommodate, and the 
paperwork that goes along with that, and the requirements that 
go along with that are, you know, sometimes very difficult to 
keep up with, and a lot of people, you know, throw their hands 
up in the air because that aspect of the job, the 
accountability aspect of the job is so focused on those areas 
that there isn't a lot built into the system for creative 
teaching and success with students.
    Mr. Ehlers. Anyone else?
    Ms. Johnson. You hadn't thought about it? Okay.
    Mr. Ehlers. Okay.
    Ms. Johnson. How is my time?
    Mr. Ehlers. You had expired.
    Ms. Johnson. Thank you very much.
    Mr. Ehlers. If you had something urgent, I would let you go 
on longer. Okay. Gentlewoman's time has expired. Now, Mr. Honda 
has asked for time to make another comment, and I have never--I 
am not about to say no to a constituent of Arnold 
Schwarzengger, so Mr. Honda, it is your turn.
    Mr. Honda. Thank you, Mr. Chair. My daddy said that when a 
teacher ceases to be a student, he ceases to be a teacher, or 
she ceased to be a teacher, and this is what I am hearing right 
now is that you want to be able to continue to learn. And I 
think Mr. Roland's comment was when was the last time we were 
able to watch each other teach and how great that would be. Ms. 
McGee suggested a need for creating a national web site to 
facilitate collaboration among math and science teachers, and 
perhaps other teachers, too. I guess the question would be what 
opportunities would POLARIS have for collaboration with other 
sites and other teachers currently in your school districts, or 
in your state or nationally? And how would the application of 
technology today facilitate that so that you have that 
opportunity to share, learn from each other, watch each other, 
things like that? Would you comment on that for me, please.
    Mr. Roland. Put random web cams in on classrooms. Then 
anyone could watch.
    Ms. McGee. I don't know, he may be on to something, because 
I really do believe that having that opportunity to be able to 
see professionals that are good at what they do is going to 
only make the field better, and the Internet is incredible for 
that. I mean, I think that, you know, we are as--I think we all 
are working hard to incorporate technology in our classrooms. 
Our students are, you know, above and beyond us in that sense, 
and just an example for you that I had mentioned is a web site 
called Access Excellence. It is run by the institute--the 
Health Institute, and what they have done is they have asked 
science teachers to share their good ideas. And, so, if I am 
struggling for a good idea or a novel way to teach a 
traditional concept, I type it in on Access Excellence and I 
come up with three or four ideas that, you know, master 
teachers have developed. That is powerful. I wish there was 
more of that.
    Mr. Cushner. Yeah, I second what Ms. McGee said, because I 
think we are busy people, and sometimes it is hard to find time 
to research many different sites to find the connections we 
want, the curriculum we want, the technology we want, and so if 
there was one centralized place for teachers, where we could 
say, like, this is what we are teaching, and get lessons, get 
connections to experts who might come in in our region, all 
those things. I think that would be a huge help to teachers in 
general.
    Ms. Ehnert. One successful program that I have been 
involved in that is not part of the Federal Government, but it 
might be a model for it is the Advance Placement classes. The 
College Board runs a listserv and I am on the AP Biology 
Teachers Listserv, and that is a great thing, because things 
come up and there is a subject line that says cell respiration 
and then I can go in and if I think----
    Mr. Honda. Yeah.
    Ms. Ehnert [continuing]. That might be something I am 
interested in, it is a question about a lab, or, you know, does 
anybody know how long DPIP lasts once you mix it up? You know, 
something like that, and it is really helpful and I have copied 
a lot of those emails and saved them, and they have been 
really, really helpful. So maybe specific listservs of 
interested teachers.
    Mr. Honda. It seems like the application of technology 
would, as in business, you can just collapse this world right 
into real-time. Classrooms could be next to each other or be 
with each other. I know there would be some concerns in terms 
of privacy and stuff like that, but, you know, as an ex-
principal, always wondered about the classroom whose doors are 
closed, and so I think that we will pursue your ideas, and 
hopefully you will keep in contact with us on that idea, and 
just feed us with that information. To all of you again, I 
really do thank you for your love.
    Mr. Ehlers. The gentleman yields his time back. Let me make 
a few wrap-up comments. We were going to have an open mic 
session. We are supposed to wrap-up at 12. I will extend that 
to 12:15, so those of you who want to make a comment, think 
about what you want to say. We will have a gentleman with a 
roving mic. Let me just make a few wrap-up comments first.
    The comment that was made about the testing--or several 
comments about testing--I am also on the Education Committee, 
and we are watching very carefully the implementation of No 
Child Left Behind. As you probably know, Mr. Cushner, the 
Department of Education has relaxed the testing requirement for 
certain classes of students. That may or may not help you, but 
that is one of the results of our constant keeping in touch 
with the problems. I have developed a theorem during my 
legislative career. In fact, I developed it almost the first 
year in the state legislature--that for every bill passed, you 
create the need for two more. This is not just a full-
employment scheme. That is the way it happens, because whenever 
you take a bold step such so No Child Left Behind, you know 
there are a lot of things that you can't anticipate. Things are 
going to go wrong.
    So we on the Education Committee need to hear from you, so 
don't hesitate to send me or your Congressman or any member--
any other member of the Education Committee your comments so we 
can get them into the net. I also want to--the comment that I 
think probably the most important thing you are doing, teaching 
math and science, is teaching critical thinking, teaching 
children how to think and teaching children how to learn.
    I happen to think, although it is not unique to math and 
science teaching, I believe that math and science teaching, 
based partly on Piaget's theory that you accommodate more than 
you assimilate in the math and science, compared to other 
subjects. I think math and science has a particularly important 
role to play there, and I have given speeches around the 
country on which I simply comment that the jobs of the future 
are going to require a basic understanding of the concepts of--
and principles of math and science, and if we don't emphasize 
math and science in today's elementary and secondary education, 
we are doing a huge disservice to the kids there because they 
are going to have more difficulty finding a decent job in the 
future.
    And I am not talking about engineers and scientists. I 
mean, that will happen, too, and we have to do better than we 
have been, but the average job is simply going to become more 
and more complex and requires the analytical skills which 
students learn in your classes. So, bless you for what you are 
doing.
    I attended a conference in education recently at which one 
of the speakers was someone who taught in elementary school, 
secondary school, was a principal, a superintendent, then 
superintendent of a district, and now heads a foundation. She 
obviously knew a great deal about it, and I said what would you 
do to try to improve math and science teaching in the school. 
And her first answer was I would let the teachers share--go 
into each others' classrooms and observe and arrange the 
schedules so they had free time to do it. I found it 
interesting that was her highest priority.
    I want to remind you of something that I managed to get in 
the bill that we got passed to create the program that NSF now 
has, and that was the concept of a master teacher, although we 
called it something else because some groups objected to using 
the term master teacher. But, in my experience in working with 
elementary schools--and I taught two NSF institutes myself many 
years ago--but going in the schools, working with them, 
observing what happened, I found that the single biggest factor 
in the success of a program was having what I call a go-to 
teacher, because if the guppies die, or the beans don't grow, 
or equipment breaks, the average teacher doesn't have the time, 
and sometimes doesn't have the background to take care of the 
problem. And my experience was if there wasn't a go-to person, 
the program would just gradually fade over a period of years, 
and then the principal would say, ``Hey, it is not worth all 
the trouble,'' and that was the end of an inquiry-based 
program. Whereas if there was a go-to person, they could just 
go and say, ``Hey, my guppies died.'' ``Oh, no problem. I will 
get you some more,'' and they are there the next day. Programs 
succeed very, very well.
    And I hope we--I hope the NSF use of that program as part 
of the Partnership Program is successful. I want to also remind 
you that we have a Partnership Program in the Department of 
Education, too, which is run through the State Departments of 
Education. Make sure your teachers and administrators are aware 
of that as well.
    Once again, thank you very much for all you have done. You 
have contributed immensely to our collective knowledge, and 
your spirit and enthusiasm is infectious. And as I said, this 
is the most fun hearing we have had in a long time.
    However, we now have 17 minutes for open mic, and Kevin's 
over there, so we have lots of hand. You can ask questions or 
make statements, whatever you want.
    Ms. Newsome. I am Lynne Newsome from Delaware. I wanted to 
address----
    Mr. Ehlers. Please give your name, for the record, and your 
home.
    Ms. Newsome. Lynn Newsome, Wilmington, Delaware. I wanted 
to address a communication issue that when one participates in 
an NSF project, do the other people know about it? We had 19 
districts combined for an NSF project, and every single K-to-5 
teacher was trained, 6 to 8 are being trained right now, and 
every teacher did know about it, and I think that is the 
principle investigator's duty to set up a hierarchy or some way 
of making sure that, not only does everyone know about it, but 
everybody participates so every child gets an equal 
opportunity. So that is done to my knowledge in any that I have 
participated in.
    So the gentleman to your right was the one who had asked 
that question, if you could tell him.
    Mr. Ehlers. Thank you.
    Ms. Foote. Actually--all their questions--okay.
    Mr. Ehlers. Yeah, all of your questions, comments, and so 
forth will go on the record, and that is why we need your name 
and location.
    Ms. Foote. Nancy Foote, F-o-o-t-e, from Phoenix, Arizona. 
There is currently a program in place which addresses both 
having a go-to teacher and having a way for disseminating 
information and programs, like NSF programs. It is through the 
National Science Teacher Association----
    Mr. Ehlers. Yeah.
    Ms. Foote [continuing]. And it is called ``Building a 
Presence in Science.'' I would like to see Congress expand that 
to include math, but also expand it to include the community 
college system which is currently pretty much untapped by the 
high schools in terms of improving the availability for 
teachers to be in contact with other expert teachers, and also 
to have your go-to teacher. You know, my goldfish died, what do 
I do? Or, is there a workshop that you know about this specific 
subject, or perhaps I don't know very much about covalent 
bonding. I have got to do a lesson in it, can you give me a 
suggestion? And it is all through that organization. It works 
very well, so I would like to encourage that to be expanded. 
Thank you.
    Mr. Ehlers. Good suggestion, and if you are not a member of 
the National Science Teachers Association, you should be. And, 
also, if you are math teachers, join the Mathematics 
Association.
    Mr. Brasser. Kevin Brasser, B-r-a-s-s-e-r, from Iowa. I 
would just like to thank you for this opportunity. I think, if 
I could sum up my colleagues here, I think, with the struggle 
of No Child Left Behind and all the little intricate parts of 
it, the more you can bridge with teachers face-to-face at the 
state level, and at the national level, ask us what we think, 
ask us what we feel. We will tell you. And although a lot of 
you have science backgrounds, we are in the trenches. We will 
help you. We will do whatever we can to help this thing come to 
fruition. And, also, our forefathers, way back, based the 
entire government on help from God, and I am asking you for 
your prayer for us as teachers in the classroom, and our 
students, and we will pray for you at your level to do what is 
right for our country and our education.
    Mr. Ehlers. Sounds good. Sounds like you are going to get 
help. Well, we exchange prayers and God bless you. Thank you.
    Ms. Godine. Heather Godine from York, Pennsylvania. I 
decided to become a teacher because I received a Paul Douglas 
Teachers Scholarship to pay for my college education. Please 
continue to support programs that recruit and give people 
tangible rewards for deciding to become teachers.
    Mr. Ehlers. Thank you.
    Ms. English. Hello. My name is Janet English, E-n-g-l-i-s-
h, from California. Thank you so much for your generous support 
and your words of support for us. And, NSF taught me how to 
teach. I got my formal education in content, but NSF-funded 
projects in the summer taught me how to teach, and wonder, and 
learn, and learn how to be a good teacher, so please continue 
supporting it because I think it is a fantastic opportunity for 
us.
    Secondly, I think that we have to address what the Internet 
has added to us in the last five years. We have the Library of 
Congress at our fingertips in the classroom. It is fantastic. 
Do you really want our kids to learn just facts, or do you want 
to teach them how to think. The Internet's there. We teach them 
how to research and teach them how to think. It is fantastic.
    Another thing, as far as keeping teachers, there was a NRC, 
National Research Council, project called Defense Investment 
Re-initiative--or Initiative--back in the late '90's. Maureen 
Shiftlet was the person in charge of that. They were able to 
double the retention of teachers--of new teachers in inner city 
classrooms in Los Angeles, science teachers, from 40 to 80 
percent after two years. I think that is worth looking into. It 
was basically a big mentoring model, but these are displaced 
scientists and engineers. A fantastic program. Very, very 
successful.
    And the last thing is that we all, as the first teacher 
said, the wonder and the inquiry and we all engaged in what he 
was doing. He was up on his chair. We were right there on the 
edge of our seats with him. It is fantastic. I don't know how 
many of you do, but I don't read things I am not interested in. 
I have to be interested in it to want to learn more, and 
teaching like that absolutely gets us involved. Inquiry is 
wonderful.
    In the middle school, if we don't give the kids structure, 
it only works for about three weeks until they start needing 
more direction. I think it is worthy to come back and say all 
these projects we are doing, researchers are doing a 
wonderful--but the teachers know what works with kids, and let 
us go from the bottom up, if you want to put it that way. I 
hate to say it, but it is true, from the trenches back up. 
These kids are fantastic. They learn. They want to learn. They 
want to be successful. There are some topics that absolutely 
lend themselves toward inquiry: buoyancy, density, laws of 
motion. Give us the permission to do that and not squish their 
curiosity, and ours, by testing us to death. Let us get those 
units available for, you know, two or three great units a year, 
and then let us develop what things we need to know and balance 
those things, because that is what hasn't been done.
    One of the things that gets teachers out of the classroom 
and frustrated and disillusioned is the big pendulum swinging 
back and forth, and no one buys into it anymore. They say, 
``well, there it goes again.'' So, if you empower the teachers 
to be part of that process and feed you the information so we 
know what to research, that would be a huge change for us as 
teachers.
    Mr. Ehlers. Good observation. I have noticed that the 
education profession is afflicted by fadism. There is always 
the latest fad, and I appreciate your comment on that. Let me 
also interject. All of you are saying such nice things about 
the NSF. I have a huge annual fight trying to get money for the 
NSF from the Congress, so talk to your Congressman. You don't 
have to talk to me. I am converted. But go out and talk to your 
own Congressman and get to know them and say, ``Look, this is a 
great operation. Increase the funding.'' Yes, ma'am?
    Ms. Audette. Yes, we will. We will talk every day. This may 
be the only time we get to talk to you.
    Mr. Ehlers. Yeah. Well, that is that.
    Ms. Audette. I want to take the minute----
    Mr. Ehlers. Could you identify yourself?
    Ms. Audette. Oh, I am sorry. Louise Audette, A-u-d-e-t-t-e, 
mathematics in Connecticut. And I want you to remember that you 
had maybe one hour of energy from four incredible teachers, and 
I want you to remember that if you had 180 days of this energy, 
that these children would become, and will become, some of the 
greatest citizens in our country. So I want you to take this 
energy that they have shared with you and don't walk away and 
forget about us. And, to keep the energy and keep the thoughts 
of education as your priority for us. Thank you.
    Mr. Ehlers. Thank you. It has been my priority before you 
were even born, so----
    Mr. Cantley. Okay. My name is Tim Cantley, C-a-n-t-l-e-y. I 
teach at Sacred Hearts Academy in Honolulu, Hawaii. One thing 
that has not been mentioned that I am a little surprised at, 
which I think supports everything everybody has talked about 
what will keep teachers in. What has kept me in is 
encouragement, support, and appreciation. I get those from my 
building principals. The building principal controls 
everything, if they wish to. Besides training for teachers, I 
think continuous training for building principals and school 
principals will be a big help. Thank you.
    Mr. Kredit. Harlan Kredit, Washington State. I have been in 
this business for over 42 years and I love what I am doing, but 
I come to a place like this with my fellow teachers here and 
get energized with what is happening. Anything that I could 
possibly do to get the rest of my colleagues, the rest of the 
people in our district to come to this would be appreciated. If 
I were the boss, I would say of all the 50 states here, here is 
what has to happen. Every one of you people, and I will give 
you five years to do it on a rotation basis, you will attend 
some kind of a convent. You will write a one-page report. You 
will send that to every parent and every school board member in 
your district, and furthermore, and then to the State Board of 
Education and, if we do not receive those in a timely fashion, 
we will withhold your funds. We need extreme measures to make 
sure other people, other teachers, can do what we are doing 
here today.
    Mr. McCollum. Timothy McCollum, M-c-C-o-l-l-u-m, from 
Charleston Middle School in Charleston, Illinois. The first 
session that my wife was able to attend as my guest, she looked 
around and commented on something that I see everyday in my 
school. She said, ``this is the largest percentage of male 
teachers I have ever seen,'' and if there is anything that we 
can encourage and need your help to encourage, is not only more 
teachers entering math and science, but particularly more male 
teachers for the very reason that Mr. Cushner was talking about 
the emotional issues that we deal with everyday with our 
students. With the changing nature of the family, a smaller and 
smaller percentage of our children are in homes that have a 
positive male role model. The males in the school so often are 
the only positive male role model, and I hope we continue to 
promote that.
    Mr. Ehlers. Thank you.
    Ms. Moore. Wendy Moore, M-o-o-r-e, from Vermont. I wanted 
to speak a little bit about No Child Left Behind and the 
mandatory testing for science that needs to take place by 2007. 
I know some states are working to develop those assessments 
right now, and I just want to speak, actually, very highly 
about what our state has done. It has been a collaboration of 
some really talented science teachers and scientists to put 
together a real authentic assessment of science, in terms of 
inquiry, developing constructed responses, tasks, and 
performance-based tasks. But, recently, there has been pressure 
to take this part of the test out because it costs too much, 
and I really want to emphasize that if we want authentic 
assessment, we need to fund it.
    Mr. Ehlers. Thank you.
    Ms. Barnett. Joanne Barnett from Ozark, Missouri. And 
Barnett, B-a-r-n-e-t-t. I am actually an elementary ed major, 
and when I was getting ready to graduate, the man at the 
Placement Office said, ``you know, if you took a couple hours 
of math, you could teach junior high math,'' and I said, 
``great, just what I never wanted to teach,'' because I was not 
a strong math student. But, I will tell you that with 
professional development, you can learn to love math and become 
a great teacher. And, I would like to applaud my state, 
Missouri, because we have put in the Missouri Math Academy, and 
it is for teachers who love to teach but don't feel confident 
about their mathematical abilities, and we look at deeper 
content, instructional strategies, and I would like to see 
something like that in place across America. It is in regards 
to John Glenn's report to the Nation about how academies should 
be held across the state where teachers are paid to come. So 
many teachers have to supplement their incomes in the 
summertime with teaching summer school, and if they can go to 
professional academies and be paid for that, we can just have a 
nation full of great teachers and successful students.
    Mr. Ehlers. Thank you.
    Ms. Jumonville. Marilyn Jumonville from Louisiana. That is 
J-u-m-o-n-v-i-l-l-e. I would like to echo what my colleagues 
have said about NSF and applaud NSF, and I would like for you--
to encourage you to applaud those who fund those projects that 
are long-term projects. A week will not change the way a 
teacher teaches. We need long projects that do that, and we 
need some type of follow-up. And I would encourage that the 
projects are--those teachers who have been identified as 
excellent teachers, to help with those follow-ups and go into 
the classrooms during the academic year and support the 
teachers as they try to change the way they change. That is not 
an easy thing to do, and I think those teachers supporting them 
throughout the year would be an excellent way to do that.
    Mr. Ehlers. Yeah.
    Mr. Kreutz. David K-r-e-u-t-z of Burlington, WI. Some 
people brought up about principals and superintendents and 
stuff getting involved. I could not do what I do if my 
principals and superintendents just didn't say do it. I have 
been in places where they just said these are what you got to 
teach, and this is how you got to do it. I left. I went 
somewhere else where they said let me hear your ideas. Do these 
wonderful things, and then we developed these partnerships and, 
heck, I spend most of my time talking to all these people about 
the partnerships that I want to do with them in bringing in 
those businesses in the areas who have the monies to not just 
throw at you and say, well, we throw it at you, now we want a 
press release, but we throw it at you and we want you to come 
back on a quarterly basis and sit down and we want to follow 
how this program is going to increase and how we are going to 
bring our professionals in and support you. And, I don't teach 
one class that doesn't have a partnership or multiple 
partnerships, and I think we all should go in that direction, 
but that is my opinion, of course.
    Mr. Ehlers. I can see a lot of you want to speak yet. I 
will stick around. I can go without lunch, so we will go until 
12:30, if necessary.
    Ms. Littlejohn. Patty Littlejohn from Tennessee, L-i-t-t-l-
e-j-o-h-n. I would just like to mention, because the 
conversation today is on science and how to get better science 
scores, and how to get more students interested in going to the 
science fields. I think it has to start back in elementary 
school, and when we start, as middle school teachers--I am a 
seventh grade science teacher--I find that so many kids have 
not had science in elementary schools because there is such an 
emphasis now with No Child Left Behind on reading, language, 
arts and math, that there is not time in the week to teach 
science. It is not being taught. So I think we have got to 
take--I know that by 2007, science will be on the AYP [Adequate 
Yearly Progress], but until then, we have got to do something 
to make sure science is not deleted from our elementary 
curriculums.
    Mr. Ehlers. Thank you.
    Mr. Ryan. Mark Ryan from Minnesota, M-i-n-n-e-s-o-t-a. 
Can't spell our state. I am one of those mid-life professionals 
who changed my career to come to teaching. I was a scientist 
through training and became a teacher at the age of 45. It is a 
great route to take, and I encourage people to do that, but it 
is not an automatic. I could not step into a classroom and 
begin teaching. I remember my first day to this day. My--what 
on Earth am I doing here? What makes me think I can do this?
    The standards and the regards of teachers as professionals, 
I believe, is at serious risk in this country. We are vilified. 
We are identified as enemies. We are the fault for so much of 
the evils that tend to be in education. We catch it, and I 
don't think that is deserved. I am, quite frankly, insulted by 
the proposal to create the Super Teacher program where 
scientists can automatically become a teacher and be paid 
$100,000 a year and be called a Super Teacher.
    That, to me, is insulting to these many, many people and to 
the thousands of teachers who work every day to the best of 
their energy to try and educate children. The National 
Science--the National Board Certification Program--I am a 
member of that--one of the most tremendous professional 
development things I have undertaken, an analysis--a self-
evaluation and analysis of my teaching, my interaction with the 
class, improved my teaching more than anything else ever has.
    I would encourage you to try, in some manner, to support 
and promote programs such as that to raise the professional 
standards of teachers to the professional level at which they 
truly are.
    Mr. Ehlers. Thank you. I notice--excuse me just a moment--I 
notice a number of you are not very accessible to Kevin, so if 
you want to ask a question, you can step to the sides where he 
can more easily reach you.
    Ms. Peterson. Hi.
    Mr. Ehlers. Go ahead.
    Ms. Peterson. Donna Peterson, P-e-t-e-r-s-o-n, from South 
Dakota. I started out my career as a science teacher, and I 
switched to math, so I have seen it from both sides, and I love 
both. And I did get some very early training with the National 
Science Foundation, and I do think it made a tremendous 
difference in my teaching career, and I know I don't have to 
sell anybody in the room on the National Science Foundation, 
but I have taken the challenge on today that when I get back to 
South Dakota, of contacting my Members in Congress to--I am 
going to call both of my senators, and I would just like to 
challenge all of my fellow teachers. I think if all of us would 
do that, and make it a priority, when we get back in the first 
two weeks to either send them an e-mail, call them, or 
communicate in some way that, as a force, we might have some 
influence for the National Science Foundation, and so I would 
just like to challenge all of you to do that with me.
    Mr. Ehlers. Thank you.
    Ms. Marshall. Hi, I am Heather Marshall, M-a-r-s-h-a-l-l, 
and I represent Georgia mathematics, and a little bit off the 
topic of speaking about math and science in specific, I would 
like to address the tremendous burden that I have for at-risk 
students. I also serve as the at-risk coordinator for my middle 
school, and while there are federal programs to help students 
who are identified as special education, meaning they have an 
IQ below 70, or there is a serious discrepancy of 20 IQ points 
or more between two content areas, there is nothing for the 
slow learner that has an IQ of 72, and it is--with student 
support teams and the processes that each of our states has to 
support those, it is just not enough, and I am just wondering 
if you can entertain that idea to try to develop some type of 
federal support for those students, because I feel like they 
are just falling between the cracks, and those are the kids 
that are dropping out. Thank you.
    Mr. Ehlers. Okay. Thank you. To your left.
    Ms. Pinner. Aloha. My name is Pascale Creek Pinner. I am 
from Hawaii. I am from the big island, and so we are isolated. 
I teach in a school that has six elementary schools coming into 
my middle school, five of the six are in corrective action. 
That is difficult for us. It is hard for us to make changes, 
but I will tell you that one of the things we are doing which 
is helping us is utilizing our Title I funds, and we would not 
be able to do a lot of what we are doing in our school right 
now without those funds. So I personally would like to thank 
you for making sure that somehow those funds continue to 
happen. They are three times our school budget, and they 
provide for us para-professional teachers in our classrooms, so 
when I have a class of 34, I have another adult in there to 
help me do labs. They provide extra help in the special ed 
arena as well, because those kids are often mainstreamed into 
science first, and so I would just really like to see that 
continue, because many of our rural areas that are isolated 
have these kinds of populations. Those are the kids that are 
not making AYP. Those are the kids that need your help. So, 
thank you very much.
    Mr. Ehlers. Miss, is Mr. Case your Member of Congress?
    Ms. Pinner. Yes.
    Mr. Ehlers. He is also on the Education Committee.
    Ms. Pinner. I will be contacting him.
    Mr. Ehlers. Good.
    Mr. Sitzman. I want to thank you for giving up your lunch. 
I know many of us give up our lunches many-a-time. My name is 
Dan Sitzman from Omaha North High School, Nebraska. A number of 
years ago, I was in a liberal arts college in Minnesota, and my 
professor said, you know, there is an NSF-sponsored activity 
for teachers. I want you to participate in it, and I started 
off as an undergraduate participating in a program like that. 
And, after that, I always sought out those opportunities, and I 
am here today because of NSF-sponsored activities and 
Eisenhower-sponsored activities that provided that professional 
development and continue to provide that professional 
development. Currently, in our district, we have an NSF-
sponsored program that is a community of learning for 
excellence in math and science, and I am now involved with 
that, as well as with our ``Building a Presence'' leadership to 
provide those opportunities, to provide the content, and to 
help translate those professional development standards that 
are present in the National Science Education Standards, so 
that teachers can better teach and better serve our students. 
So I want to thank you for your time and giving up your lunch 
for listening to all of us.
    Mr. Ehlers. No problem. Thank you.
    Ms. Newing. I am Angela Newing from Ann Arbor, Michigan. 
Two comments I have. One is about No Child Left Behind. While I 
feel that districts should be held accountable and there should 
be some measure to--something to measure their success in 
helping students be successful and proficient in math and 
science, in our state, we were just spared from--in 
mathematics, our state benchmarks. There is a new, revised 
version that just came out in December, and teachers did not 
serve on the Committee to develop these state benchmarks or 
standards, and, for example, as an eighth grader, an eighth 
grader is now going to be expected to be able to write an 
equation for a quadratic function, find the--where they 
actually cross the x-axis. At sixth grade, they are going to be 
expected to be able to write linear equations for any type of 
real world application. These skills, right now, are taught--
the linear equation was taught in eighth grade, and how to find 
quadratic equations and how to use that is a tenth grade skill 
they have to do. But, this is being moved down for two years. 
But this is what our--two--our MEEPS Test at--that is our 
Michigan test--in two years, we are going to be measured by 
that.
    They are creating the test now based on those benchmarks 
that we are going to be graded on, and funding will be provided 
for based on those benchmarks. Textbook companies only have the 
opportunity to create the books to now meet those standards, 
but yet we are going to be graded based on that. I just think 
that is a travesty, and I told my teachers that if I got an 
opportunity, I will make sure I have said something about that.
    Secondly, I just want to say as we address the achievement 
gap and we talk about African-American and Latino students, 
they lack role models. As we were talking about male role 
models, we definitely need to see more African-American and 
Latino role models in those schools in math and science, and 
that will help to increase African-American and Latino students 
interest in math and science and help them to achieve better, 
as well as giving--provide them with resources in their 
communities more to do that. We want to be enrolled in rigorous 
classes and courses, not always remedial courses. They need to 
be enrolled in--I am sorry--they need to enroll in rigorous 
courses, but you can't just throw them into rigorous courses 
without support. So if you can find a way to provide funding 
that would give support to these tutoring systems or other 
programs that will help them be successful in a rigorous course 
that will help in closing our achievement gap.
    Mr. Ehlers. Thank you.
    Ms. Swenson. Virginia Swenson, S-w-e-n-s-o-n, from Iowa. 
There are two areas that have not been addressed. One is the 
NASA Teaching Program. NASA also does an excellent job of 
teaching math and science teachers, and we need not forget them 
also.
    The second thing is you asked why our teachers are leaving 
the profession. I am finding out that a lot of the teachers 
that are leaving our profession in--or that--my area is, ``Gee, 
you are doing a good job so we are going to add another 
additional class to you,'' so rather than teaching four 
classes, you are now going to be teaching six different 
classes. And, you know, your classroom can have an additional 
four or five chairs in it, so rather than teaching 15 students 
in your classroom, we are going to increase it to 40.
    So I think those are two areas that the paperwork, talking 
with the parents in the evenings, and trying to prepare for six 
or seven or eight different classes a day, will make you tired 
and will make you leave the profession. Thank you.
    Mr. Ehlers. Thank you. I have learned the hard way that 
those who do good work get more work.
    Ms. Wendy Smith. I am Wendy Smith from Wyoming, and I 
wanted to address the No Child Left Behind. I think we are 
doing a huge disservice to our special education students with 
this program. A lot of them are going to be left behind because 
of the program.
    Mr. Ehlers. Thank you. We are--we got word that we 
absolutely have to be out of the room by 12:30 because another 
hearing is coming in. They have to get the room set, so let 
us--we have time for about two more, then I want to wrap up.
    Mr. Isaak. Steve Isaak, Las Vegas, Nevada, I-s-a-a-k. I 
just want to say thank you. Also, thank you to NSF. They are 
one of the few organizations that fund good curriculum and then 
field test it and get teacher feedback, and that has been some 
of the greatest professional development I have had. I have 
seen it close the achievement gap between rich and poor and the 
cultural groups, and I think--I would encourage you to strongly 
recommend the textbook companies, which drive many of our 
classes, do the same things. If we don't test them, how do we 
know they work? And then we just perpetuate failure. Thank you.
    Mr. Ehlers. Thank you.
    Ms. Emma Smith. Emma Smith, S-m-i-t-h, Utah. I just wanted 
to thank you for this opportunity because I feel the support, 
and, for me, that is the key in teaching. A brain surgeon has 
one individual they are working on at one time, and they have a 
key group of nurses, anesthesiologists around them, so I, for 
me, feel that the key for retention is support and the idea of 
team teaching. So, thank you.
    Mr. Ehlers. Thank you. Last----
    Ms. Raziano. Kathy Raziano, R-a-z-i-a-n-o, from Louisiana. 
I think one of the things that would keep teachers in the 
profession is a really good mentoring program which would 
provide the support. We have a good program in Louisiana, but 
there is a time problem with the teachers who are being 
mentored meeting with their support teacher. It adds an extra 
two or 3 hours to the day, sometimes, which makes it very 
difficult for teachers.
    And I would also like, since I have got the microphone, to 
reiterate what several people have said. We were teaching 
science by inquiry. We are trying to teach students to think. 
You are on the Science Committee. You know that science has 
expanded so much where there is no way we can teach them all of 
that. We can just teach them how to find out about it and how 
to think, but that is not the way they are being tested, and I 
would hope that when we are developing these tests in No Child 
Left Behind that we will test what we are teaching rather than 
test for facts. Thank you.
    Mr. Ehlers. Thank you. With that, we will wrap it up with 
just a few closing comments. First of all, the textbook issue, 
that is a major problem and, unfortunately, is not under the 
control of the Congress to any extent, but I hope you will 
continue to work through your states on that particular issue. 
Is there anyone here from NSF? Anyone here? I would like to 
have you stand, please, and I would like everyone to give them 
a rousing thank you. They do a great job with very little 
resources, and very little appreciation, as very few government 
employees get much appreciation. But thank you.
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Ehlers. Thank you for what you do. Yes, Ms. Jackson 
Lee?
    Ms. Jackson Lee. Running miles in hallways, I just wanted 
to--coming from the Homeland Security Committee--I just wanted 
to thank all of you for your presentation. You have our doctor 
in the chair, and I know that he has encouraged you, because 
those--these are his roots, math and science. Let me just say, 
Ms. McGee, I understand that you have applauded the testing 
process in Texas, and we all want accountability, but I do want 
to add that I am very proud that what you have generated is not 
only accountability, which we all can agree or disagree on in 
terms of testing, but excitement and energy, and the desire of 
our students to learn.
    And so I hope that this committee will learn from each and 
every one of you about what we need to do to continue to 
encourage our students to be enthusiastic about learning math 
and science, because I do believe it is the work of the 21st 
Century and I invite all of you all to get in line for your 
ticket to Mars, to the Moon, and to be the next wave of 
commercial space travelers as we encourage and promote NASA and 
its vision, and the national vision, for space exploration. 
Thank you all very much, and forgive me for getting here, but I 
wanted to say thank you publicly, and if I could get back to 
class, I would, but I am learning from you every day. Thank you 
very much.
    Mr. Ehlers. Thank you. I have two very quick comments. 
First of all, the testing and the science assessment, keep an 
eye on that at your state. I spent 30 percent of my time in the 
last four years working on trying to get that science testing 
part into No Child Left Behind. There are people who think it 
should be removed, so we need your support to keep it in, and 
to make sure that the tests are fair and adequate, and they can 
be your lever to improve teaching and getting more--greater 
resources in your state.
    Ms. Jackson Lee. Mr. Chairman? It is--just here--I don't 
know if I had said--I was not here, so I will not prolong it, 
but I will just simply say that I hope in the course of 
questioning, we also emphasize the importance of diversity with 
respect to----
    Mr. Ehlers. Yes.
    Ms. Jackson Lee [continuing]. Our inner-city schools, the 
rural schools, Hispanic and African-American children who have 
lower numbers of interest and participation in math and 
science. I commit--and commend all of our teachers to find that 
effort, or to expand that effort and reach out into our 
students in that area. That is one of the areas that we are 
working on in this committee.
    Mr. Ehlers. Yes.
    Ms. Jackson Lee. Thank you.
    Mr. Ehlers. That was covered shortly before you arrived.
    Ms. Jackson Lee. Thank you very much.
    Mr. Ehlers. And final comment, don't forget the parents. 
The interest and involvement of the parents is the key factor. 
Thank you again very, very much for being here. I appreciate 
it.
    [Whereupon, at 12:35 p.m., the Committee was adjourned.]

</pre></body></html>
